                                                                                                                             July 1, 2014

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development


Dear Mr. Hammink:

Thank you for your responses to my two inquiry letters regarding the 19 contracts1 USAID has
terminated in Afghanistan since 2008.2 We have completed an initial review of the information
provided by USAID and will be sharing this information with SIGAR’s Investigations and Audits
Directorates for further analysis. However, please allow me to share some preliminary observations:

            Overall Cost: There are at least seven terminated contracts identified in your responses for
             which USAID has yet to reach a settlement agreement. Therefore, as USAID reaches
             settlement agreements concerning these contracts, the $237 million your office identified as
             the amount disbursed by USAID for terminated contracts may increase.3 We suggest USAID
             factor in those likely cost increases as it schedules and prioritizes its financial audits as part
             of the contract closeout process.4

            Termination for Default vs. Termination for Convenience: We noted that 18 of the contracts
             identified in your April 15, 2014 response letter were terminated for the convenience of
             USAID, and that none of the contracts were terminated for default5. USAID’s responses
             suggest that termination for default was considered in at least two instances. We
             understand that terminating a contract for default can lead to litigation and that an agency’s
             decision making can come under intense scrutiny when it asserts that a contractor has failed
             to meet its obligations. However, we are concerned that if avoiding these challenges
             becomes the standard approach to contracting in Afghanistan, it may lead to poorly
             performing contractors being unduly compensated for substandard work. Therefore, as a
             preliminary matter, SIGAR suggests that USAID assess its current process for terminating
             contacts, so as to safeguard against the reflexive use of terminations for convenience in
             situations where a termination for default would be warranted.



1SIGAR’s inquiry letter of March 25, 2014, asked for information concerning all of USAID’s terminated contracts, grants and cooperative
agreements related to Afghanistan reconstruction. USAID’s response letter of April 15, 2014 only refers to terminated contracts.
2   See Attachments I - IV.
3   See Attachment I.
4In April 2012 we noted that there has been a significant backlog in these financial audits and made recommendations to USAID to
alleviate this backlog by providing additional funding and by altering the system to identify, prioritize, and expedite specific audits. See
SIGAR Audit-12-9, USAID Has Disbursed $9.5 Billion for Reconstruction and Funded Some Financial Audits as required, but Many Audits
Face Significant Delays, Accountability Limitations, and Lack of Resources, April 30, 2012.
5One contract (306-IL—10-04-01) was to be canceled because the Ministry of Finance/Independent Directorate for Local Governance
could not demonstrate substantial capacity to track and disburse funds to sub-national governance agencies outside of Kabul.
           Direct Bilateral Assistance and Public Financial Management Risk Assessment Framework
            (PFMRAF): U.S. direct bilateral assistance to Afghanistan should be predicated, at the very
            least, on the recipient meeting U.S. government qualifying standards for eligibility. USAID’s
            operational policy requires that “…USAID Missions must conduct PFMRAF assessments of
            any new/potential partner country government implementing entities…”6 USAID terminated
            two contracts for pre-award assessment of Afghan government entities—the Supreme Court
            and Ministry of Counter Narcotics.7 USAID canceled the contracts before any costs were
            incurred. The annexes provided by USAID for the cancelation of both risk assessment
            contracts state that these Afghan government entities were “unwilling to cooperate with the
            contractor”8 undertaking the assessment.9 With the cancelation of the assessments, the
            Supreme Court and Ministry of Counter Narcotics were rendered ineligible to receive direct
            bilateral assistance. We agree with USAID’s actions as presented in your April 15, 2014 letter
            and continue to believe that USAID should require compliance with ADS 22010 prior to
            providing direct bilateral assistance to Afghan government entities.

           Pre-award Planning: In some cases, USAID’s termination of a contract seems to relate to
            inefficient or ineffective pre-award planning or activities. For example, USAID notes that it’s
            Watershed Restoration Program in Ghor province duplicated or overlapped with another
            project with the same implementing partner. While it appears that USAID later discovered the
            problem and attempted to correct it by combing the two contracts with the same
            implementing partner into a single contract, we question why an initial amendment or
            expansion of the contract was not explored as opposed to awarding a second contract.
            Security concerns were also cited in a number of canceled contracts. We are concerned that
            USAID’s project planning may not be adequately taking into account the size, scope, and
            sustainability of projects undertaken in areas of Afghanistan with known security concerns.
            We suggest that USAID conduct a thorough examination of projects that were consolidated
            with other projects or canceled due to security concerns, because they may provide valuable
            lessons learned for future projects.




6   USAID, Automated Directive System (ADS) 220, ADS 220.3.2.2, pg 16.
7   In both cases the assessments were begun prior to ADS 220 being finalized.
8USAID Annex 10 “Pre-award Assessment of Supreme Court” and USAID Annex 12 “Pre-award Assessment of Ministry of Counter
Narcotics”.
9USAID’s April 15, 2014 letter in response to SIGAR’s inquiry states both projects had extenuating circumstances including security, lack
of staff coordination, and confidentiality concerns, although no extenuating circumstances are listed in either annex.
10SIGAR 14-32 Audit Report, Direct Assistance: USAID Has Taken Positive Action to Assess Afghan Ministries’ Ability to Manage Donor
Funds, but Concerns Remain, January 2014.




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                            Page 2
I am submitting this request pursuant to my authority under Public Law No. 110-181, as amended,
and the Inspector General Act of 1978, as amended. SIGAR has no further questions or requests for
information at this time. No further response from USAID is required. Should you have any questions
or need additional information, please contact Jack Mitchell, Director of Special Projects, at
                                  or               .


                                                             Sincerely,




                                                             John F. Sopko
                                                             Special Inspector General
                                                               for Afghanistan Reconstruction


Enclosure(s):

I – USAID Response to SIGAR-14-44-SP, dated April 15, 2014
II – SIGAR-14-44-SP Inquiry Letter: Canceled USAID Contracts, dated March 25, 2014
III – USAID Response to SIGAR, dated December 15, 2013
IV – Initial Inquiry Letter to USAID Regarding Canceled Contracts, dated November 15, 2013
V – USAID Mission Director Open Letter to the Los Angeles Times, dated November 3, 2013




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                       Page 3
ENCLOSURE I: USAID RESPONSE TO SIGAR-14-44-SP, DATED APRIL
15, 2014




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts   Page 4
                                                          2

                 Each contract is a different situation, with reasons for termination. Details are
                 provided for each agreement. USAID believes all terminations were made in
                 a timely way, based on the circumstances of the program.

                 To maximize development results and the investment of taxpayer dollars,
                 USAID decides to terminate programs (contracts or cooperative agreements)
                 only when: a) lack of programmatic progress can be clearly and demonstrably
                 attributed to poor performance by an implementing partner; b) when the USG
                 strategy and USAID priorities shift drastically, necessitating a re-alignment of
                 development objectives and resources; or c) when the operational
                 environment presents challenges that are too difficult or too costly to
                 overcome.

                 Of the 16 contracts terminated between 2008 and 2013:
                    • Four (4) were terminated due to the increased violence throughout the
                       country, particularly the southern and eastern parts, or due to an
                       increasingly challenging business environment, e.g., delays in visa
                       issuances, customs delays, which would have delayed implementation
                       and increased costs to an unacceptable level.
                    • Six (6) were terminated as a direct outcome of USAID diligent
                       monitoring of performance and results, examination of program
                       effectiveness in the ever-changing environment of Afghanistan during
                       those years, and re-alignment with shifting USG and GIRoA priorities,
                       as stated during the Kabul Conference.
                    • Two (2) were terminated on procedural/legal grounds, following bid
                       protests, even though new contracts were immediately issued following
                       resolution of the bid protests.
                    • Three (3) were terminated due to the inability of host-government
                       counterparts to meet USAID requirements. These contracts amounted
                       to $10 I, 784 total, out of which $5,406 was disbursed prior to
                       termination.
                    • One (I) was not terminated, but rather suspended, and then allowed to
                       continue throughout its period of performance, achieving all of its
                       results.

                 In addition, the mission suspended funding to the District Delivery Program,
                 which supported the Independent Directorate of Local Government, because
                 of allegations of improprieties in program management. Since then, the
                 Mission has conducted several reviews of the program and is evaluating the
                 findings to determine what further action to take.




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                              Page 5
                                                          3

                 In making the decision to terminate the 17 programs reported to SI GAR,
                 USAID safeguarded taxpayer dollars and increased the effectiveness of
                 development assistance in Afghanistan, all the considerations above
                 notwithstanding. Of a total portfolio of over $12 billion, the amount disbursed
                 under the terminated programs was less than 2%. Results achieved with those
                 disbursed resources helped build the foundations of new programs and made a
                 lasting impact on Afghanistan' s development, an intrinsically valuable
                 accomplishment, even if incomplete. For example, our Support to the
                 Electoral Process in Afghanistan (STEP) project strengthened the electoral
                 process in Afghanistan, improved planning and implementation of both the
                 2009 and 2010 elections, and even paved the way for the peaceful elections
                 Afghanistan just experienced on April 5, 2014.

                 The information provided in Attachment I details the reasons for the
                 termination of each project, the benefits from USAID's perspective of doing
                 so, as well as the value obtained prior to termination of each project.


                 2) To what degree is the lack of cooperation impeding USAID reconstruction
                    and development efforts in Afghanistan?

                 In general, USAID enjoys significant and constructive cooperation from
                 Afghan institutions in the overwhelming majority of its projects. Of several
                 hundred projects since 2008, only two were cancelled due to a misnomer
                 "lack of cooperation," both instances had extenuating circumstances further
                 described in the annex. Both instances with Afghan institutions involved a
                 Public Financial Management Risk Assessment for on-budget assistance.
                 Therefore, it would be inaccurate to conclude that a lack of cooperation from
                 Afghan institutions to any degree has significantly impeded USAID
                 reconstruction, or that a Jack of cooperation is significantly impeding USAID
                 development efforts, when less than I% of activities have been halted since
                 2008.

                 Afghanistan does have unique challenges. For example, Afghanistan is
                 coming out of decades of war and is still dealing with pockets of conflict in
                 insecure areas, as the run-up to the April 2014 elections have shown, making
                 Kabul itself insecure at times. There is no doubt that challenges such as these,
                 and genuine disagreement about priorities, funding mechanisms, and
                 implementation approaches, require more of an effort by USAID to resolve.
                 Nonetheless, these challenges, even when they appear to be more acute in
                 Afghanistan than elsewhere, are part of the normal dialogue between USAID
                 and host-country partners in delivering assistance.




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                             Page 6
                                                          4


                  A more detailed response relating to General Questions 1 & 2 is included in
                  Attachment 1.

                                                                    Sincerely,



                                                                    William Hammink
                                                                    Mission Director



                  Enclosures:
                        1. Questions regarding USAID cancelled contracts
                        2. Terminated contracts fact sheets
                        3. List of terminated/cancelled contracts




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                         Page 7
                                                              1


              ATTACHMENT I: QUESTIONS REGARDING USAID CA 'CELED CONTRACI'S

              1. For each of the canceled l 7 projects or programs, provide current infonnation on the
              following:
                      Dollar value of cacb related implr.·mcnting prim e contract, grant and cooperative
                      agreement; (0riginal 7oral Eslmwted Cosr. plem·e see Annexes I 18)

                     Total obligated amount of each implement ing prime contract, grant and cooperative
                     agreement the contract; (Please see Lrsl ofPropx:ts and Programs
                     Term111atecPCa11celled)

                     Total amount spent on each implementing prime contract, grant and cooperati ve
                     agreement; (A111011m Dtslmrsed, please see .-lnncxes J 18)

                     Estimated cost to complete the t enns of each tem1ina1ed contract, grant and
                     cooperati ve agreement a~ o r the date of tcnnination; rTEC al ten111nalion or awmting
                     sertle111ent, please see Annexes J 18)

                     Highest total estimated cost during the life of the proj ect or program; (OriRinal TEC
                     Re111sed TF.l • TF:C at Tenmnatwn 1 TFX' ut ( 'lo~e-011/, please see. lnnexes I 18)
                     (Piel/Se see List ofl'rqfects and Progrnms Tem11nu1ed Cancelled)

                     Type of each implementing award, including whether it is a contract (finn-fi xed-
                     priced, cost plus-fixed-foe, etc.) grant or cooperative agreement; (Please see .-1n11exes
                      I   18)

                     List of original implementing award (i.e., prime contract, grant or cooperative
                     agreement) deliverables and documentati on of any modifications made over the life of
                     lhe award, including any otnstanding or remai ning work 10 be done at the time of
                     tenni11ation/caneelation; (Plea~e see wpporttng doc11111enrat1on. wrthm the folder for
                     the awards)

                     Approved decision memorandum documenting the termination/cancelation; (Please
                     see s11pportrng documentatron. 1l'tlh111 the/older.for certain awards)

                     Final implementing award modiJication/amendmeut; (Please see supporting
                     documemanon, w11htn the folder/or each c111·ard)

                     Status of award close out and an y outstanding obligations such as additional
                     di sburseme nt~ (actual or estimated amount) due the implementer (i.e., contractor,
                     grantee or recipient of a cooperati ve agreement): (S'F-3() or Sealement Agreement.
                     please see Anne:i;es 1 - 18) (Annex::. J. 5. 9. 15. 1-. 18 are all m-progress)

                     Was there tenniuation liability 0 11 behalf of the government and, if so, how much;
                     (SF-30 or Setrle111en1 Agreement. please see Annexe"· I -18) (rl nnex :!, 3, 5, 9. 15, 1-.
                      18 are ull in-progress)




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                           Page 8
                                                               2


                     Value to Afghanistan reconstruction achieved before tem1ination/cancelation (i.e.
                     training provided, capacity increased, construction completed), ru1d; (Please see
                     Annexes 1 - 18)

                     Tennin ation clause contained in the award. (Please see h1ghli[!.hted cla11se.for all
                     awards m the supporting doc11mental1on. 1r1thrn the (older (or each award)


              2. According to the spn.:adshet:I. the last tcnninated project/program t:ndcd on October 30.
              2013.
              Have additional awards been terminated/canceled since that date? Ifso, provide the award
              number, dat..: of award, name of implementing partner, the total obl igated and disbursed
              amounts. and a brief explanation for the lcnnination/cancclation.

              Tll'o add111onal awards have been 1en111nated since October 30. 2013 .-UD-306-C-l 2-00006
              Agnc11ll11re Research and Exlension Del'elopmen/ Program (/IGRED) and A fD-306-TO-l 3-
              00002 l rrigat1on and Watershed Management Program (lWHPJ. (Please see Lr~/ ofPro_/eC/s
              and Programs Tem11nated Cancelled. and Annex 1- and 18.for briefexplanation for the
              lernuna110n)


              3. Based on the infom1ation provided by USATD, 3 of the 17 projects (#306-C-00- 11-00517-
              00.
              #306-C-00-11 -00517-00, #AID-306-C- 12-00005) were canceled due to bid protests. Does
              USAID consider 3 bid protests out of 17 terminated awards to be the nonn or unusuall y hi gh
              for a similar period of lime? Please explain. Also, were subsequent actions taken by US AID
              to solicit contracts for the same requirements contained in the canceled projects? lf so,
              provide the award number, dale of award, name of implementing partner, and total amount
              obligated and disbursed.

              The 1erminat1ons that were due to bid protescs occurred in 2010. 2011and2013. Given 1he
              volume. scope and magmwde ofpro;ects awarded over this period oftime relative to the
              three term mated awards. USA.ID considers lenmnated awards as a result ofbid prolests as
              extremely low. S11bseq11em acrion by U.v.1 ID: for project #306-C-00- 11-005 J 7-00, p lease see
              . lnnex 2. For project I' 306-C-(J().J 0-00506-00. p lease see Annex 5- (AJD-306-C-l 2-0001./.
               ~ 16 12. Tetra Tech DPK. Ami. OblTgated: 522.581. 128.00. For pro;ect 1-AJD-306-C-12-
              00005. please see .-1 nnex 15- (.4 fD-306-C-I 3-00-00003. 3 I./ 10I 3. AF.COM lmernal10nal.
              Inc., A mt. Oh!igated: S2-1,5 I 0,000).


              4. Plea<;e explain under what circumstances USA ID would tenninate an award for
              convenience after U1c full. or nearly full, value of the award had been paid. Please explain
              why some awards were tennin ated after a relatively short time span while others were
              tenninated near the end of the performance period. Please include in your response answers
              to the foll owing questions:

              f..JSAJD v1e 11·s terminations ofprograms as a last resort. The preference. both from"
              pro?,ra111111a1ic and cost-effectiveness standpoint. 1s 10 re-adp1stfoc11s 10 /rack 1111plementm1on
              reaht1es 11·1/hm a pro?,1w11, modi6mg ll'Ork if ar all poss1hle. w1thm conlractual parameter.I'




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                             Page 9
                                                              3


              USAID's decisions to tcnninate and re-focus programming were the outcome of a
              deliberative, analytical process, influenced by seveml fadors, many of which were
              beyond USAID's direct control, and can happen at any stage in the lit'ecycle of a
              program:


                     a. Secunt)! and Violence: The areas in which USAJD 's programs were implememed,
                        particularly the southern and eastern parts of the country. were and continue to
                        be highly kinetic and su~ject to violent insurgent attacks. ,'ls a result, program
                        implemenlalwn and lhe ahllily of the USA TD pariners lo compleie work m some
                        areas was greatly hindered. Completing the envisioned activities became costly
                        and d1tficult at best. and at times, simply impossible (e.g., AA1DEP. Design and
                        Constructwn ofHigher Education Facilities).

                     h. Shl)h· in USG Straleg>' und USA m T'rwrilies: D11ring the 2()1 fJ Kuhul
                        Conference, the USG committed to aligning 80% of'the development assismnce to
                        Afghanis/an wllh fhe ,\'alwnal T'rionly Programs and lo delivering 5()% oflhat
                        assistance through on-budget mechamsms. Jn addition and as a consequence, in
                        207 J USA TD revised ils development approach in Afghanis/an lo flH:us on
                        "foundational investments." mainly in infrastructure and economic growth. The
                        necessifc)! to respond to Afghan national pnonti es. coupled w tth USAJD 's strategic
                        re-direction led to a re-assessment of the programmatic focus ofprojects. and in
                        some cases, to their tenninar1on (e.g /<Vatershed Restoration in Ghor. AAJJJJ<,'J-',
                        STFW. APAP TT).


                     c. Complexiry of iVork and the Operating Environment: Jn add1t1on to the difficult
                        security environment, conducting normal, day-lo-day husiness operations m
                        Afghanistan was, and continues to be challenging at best. The projects USA.ID
                        implements are large. log1st1ca!ly complex and often times require focal
                        cooperation and capacity to achieve their intended results. For some of"them,
                        log1slical difficullies (\'i.rns, lransporl, customs, la:u:s, elc.) hmdered progress; in
                        olhers, systemic deficiencies, flaws and luck oflocal L'oniruclor L'upaL'ily were
                        encountered, causing USAID to stop work. despite achievements (e.g. LCICD,
                        Sheberghan Gas Fields, ACnP).

                     (For award specific explanations. please see Annexes 1 - 18J

                     Award No. 306-A-00-07-00504: At the time oftennination, roughly $1.4 million had
                     been expended over approximately 3.5 years. Explain which activities were folded
                     into other projects, the names of those projects, and associated award numbers.

              (Please see Annex 1) The activities of the Village-Based FVatershedRestoration in Ghor
              aclivilies were included m the A gro-F.nlerpnse Development Alliance projecl -A TD-3 06-A-
              00-08-00511-00.




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                            Page 10
                                                               4


                      Award No. 306-P-00-08-00520: At the time oftennination, roughly $8. 5 million had
                      been expended on the project over the course of 4.5 years of work. Explain why the
                      scrvi1.x:s to design and construct 16 raciliticx orhighcr cdui.:alion were no longer
                      needed. Provide a detailed description or the sixteen facilities including the function
                      they were to serve, their location, and the ext.ent to which any of the buildings \Vere
                      completed and are in use.

              Dunng unplernentat1on, the implementer.found It extreme~}' difficult to complete the 16
               buildings due to the worsening security situation throughout the country. Jn September 2010,
               USA.ID reduced the origmal scope of 16facilltles to 6. While there was stzll a need for all 16
               schools. it was no longer practicable to complete them in all the areas initially identified. 1'he
               agreement amount was reduced.from $17,200,000 m $9,120,625. Jn 2011, anAf.ghan
               subcontractor abandoned the worksite, and subsequent inspections determined electrical
               deficiencies and.faulty roofs. In 2012, USA CE hired a new local contractor to complete the
               remaining work for completion by August 2012. USAC"""E de-scoped and terminated the sub-
               award, resulting in further delays and costs. USAC.t.: prepared a new solicitation to
               subcontract the work at an addtt1onal 310 days and $150.000 1n additional costs. The new
               c,·ompleiwn dale was proposed as TJeGemher 2013. As r~(Januwy 2013, 3 faGlliiies were
               compleie and turned over lo !he AfimslrJ' o/Hzgher F:ducalwn and !he remainmg 3 faG!lzi1es
               were 95% complete. Jn the Dec15ion Memo. the technical ()ffice recommended descoping the
               US.:1C.c: award and procuring a contract ·with two localflrms using the USAJD Vertical
              Structures JQC. The recommended action would reduce the overall costs ofthe project and
               eslimaled Gomplelion dale lo Afay 2013. A Termmalion j(Jr ConvemenGe le lier dated JanuWJ'
              13, 201 3, was issued by OA.A. The negotiated settlement agreement took place in Mod# 10
               reducmg the obligated amount of the agreement by SJ .373.915.97. /eavmg a total obligated
               amoum of"$8,525, 098. 77. !Please see Annex 6, and the program description of the pro_rect
              for descnptton offacilities,fimction, and location, within the.folder.for this award)

                      Award No. 306-C-00-09-00505-00: Roughly $1.4 million harl been disbursed during
                      the first 8 months of a 19-month pr~ject, yet the contract \Vas tenninated because, "its
                      completion was not going to be possible with.in the period of performance." Provide
                      the percentage of completion of the donnitorics at the time of termination. Was work
                      on Lhe donnitorics ahamlonc<l or was Kahul University ahlc to use whatever progrcss
                      had been made on the project for an alternative purpose? Please provide supporting
                      documentation.

              June 30. 2009. COR .rnhmitled an email with ailaGhmenl io lhe CO recommending
              termination for default ofthe contract. with the value of the completed work at approximately
              $1 mtllton (90% of the refi1rb1shment ofthe Fme Arts bwldmg as a temporw~v livmg space
              completed. and work partwl~v completed for the first of the four wings of the dormitmy).
              Accordmg to FAR 49.402-3(a). "TV71en a defi:mlt tenninat1on 1s being considered, the
              Govern men! shall deczde whzch type ofterminatzon aclion lo take (i.e., default, convenience,
              or no-cost cancellation) only after review by contracting and techmcal personnel. and by
              counsel, to ensure the propriery of the proposed action." On July 2, 2009, the CO met with
              the JU.A to discuss the recommendation. The COR. 's memorandum specifically addressed the
              conlraclor 's_fl1ilure.1· as: Failure Jo meel contracl specifications for quallly control; Failure
              to meet contract specifications for safety and health: and unacceptable job-site peiformance.
              The contractor was previously issued stop-work orders related to health and safety, with the




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                             Page 11
                                                             5


              latest issued on June 18. 2009, under the ,'lccident 1-'revention clause o(the contract. The
              Government considered the contractor's lack ofcommitment to safety an on-gomg hazard
              should they continue in the implementation of work. Based on discussions with the COR and
              RT.A, !he Government delenmned lhal conlinuing Jhe work w!lh T.RS would pui workers ai
              risk. and the contractor will have quality is.mes reqwnng substantial rework that will mipact
              schedule through the remaining pertod ofperfonnance o(the contracr. Aforeover, completion
              ofthe work was vital to the Government ob;ect1ves m Afghamstan, given the importance of
              completing the work on schedule to meet our commitments to GJRoA. Based on the
              discusszons, !he quahly and responsiveness zssues alleged again.~l lhe coniraclor did no!
              appear to reach the threshold necessary to sustain a terminatlonfor default. ,--lccordingly, it
               was determined by the CU to terminate the contract for convemence. A term1nat1on for
              convenience letter dated July 2. 2009, was submitted to LLS. The nef!,otiated term mated
              settlement amount was $494,571. rPlease see Annex 7 and supporting documentatwn, w1th1n
              the folder for this award). Upon approval ofa Just{fication and Approval to award on a sole
              source basis. a contract was issued ro Venco lmtiaz Construction Company to renovate the
              i\;fen's Dormitory and Design and r:onstruct a Dinmg Facility at K ahul University. As such,
              the original project was completed. with a _/\/otice to l:'roceed issued on Llecember 30. 20()9.
              The award numher is ATD-3(J()_(;_()(J_ J0-(J(J5(J l, daJed .\'ovemher J5. 2009. Venco Tmliaz
              Construct10n Company. total amount obligated and disbursed $7, 769.096. 70.


                     Award Nu. DFD-1-00-05-00225: Considcring lhal $69 million had bccn spcnl and
                     roughly 3.5 yearn invested in this project he rem:: termination, were the contractor's
                     shortcomings correctable in the final seven months of the project?

              The post-elect10n needfor capac1(y-building ofthe JEC was not the original focus ofthe
              program, rather. its focus was towards pre-eleclion and eleclwn needs, .rnch as techmcal and
              logistical assistance at the election planning and implementation stages. As a result,
              resources spent were not going to meet US.AID 'sand JEC 's needs or yield the results
              required. 1he rechnical of11ce did attempt to correct the prof!,1mn, ivorfdng with JFJ<;S on
              budget realignments bur achieved only lm11red success. IFES did not demonstrate an ability
              to evolve quickly to the changing needs ofthe JEC and changing resource climate. (Please
              see Annex 3)


              5. For 4 of 17 projects, the rationale for tennination/cancelation was either that the
              implemenlcr wa.~ not meeting the nccds or an international parlncr (onc project) or lhal there
              was lack of cooperation from the Afghan institutions (three projects). Ilow does the lack of
              cooperation from
              i\fghan institutions in Afghanistan compare to other countries in which USAlD is operating?
              To what degree is the lack of cooperation impeding CSA.ID reeornlruclion and dcvdopmcnt
              efforts in Arghanislan? Please respond lo the 4ucslions hdow:

              Overall. the level of cooperation receivedfrom A/khan mstitutionsfor reconstrnct10n and
              development ejjorrs, is nor unusual. Our on-budget efforts in Afghanistan are unique. given
              its USAJD 's largest program by jar and rhe Adminisrration 's prion~y ro move forward wtth
              on-budget assistance in Afghanistan. US.AID assessed a large number of1nmistries but d1d
              not expect to necessarily work with all of them, but rather focus on the ones that had the




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                          Page 12
                                                              6


              srronges1 poiemial. Ir is nor 11n11s11al in any coww·yfor some minisiries co demonsiraie
              greater po/11tcc1/ will to work with donors. inslil11te reforms. etc.. than others. 1lo11'ever. in
              most countnes. USA.JD will have a program in mind and identify a 11111ch more /11111/ed
              number of?,overmnenl counterparts that need to be assessed. Refot1ve to the length q(t1me
              US.lJD has been m A(ghanistan. and the number ofdevelopment and a~·s1stance ob1ect1ves
              1mplemented, the:;e four lerminal10ns have had /ti/le to no effect on developmenl efforts. On-
              b11dge1assistance1s 111creas111g and o.ff-b1tdl!,et assistance remains the lw'l!,esl w1th111 the
              1lgency. Two ofthe ten111nat10ns dealt 1r1th public financial management nsk asse:mnentsfor
              two ,1//ghan ins/1/u/1ons.

                      Award No. DFD-1-00-05-00225: What needs of the lndepcndenl Election
                      Commission (!EC) were not being met by the contractor. Jn tem ational Foundation for
                      Electoral Systems (IFES)? What efforts were made to rectify the shortcomings during
                      the life of the contract?

              While the Support to the Electoral Process 111 A[ghcmistan (STEP) program played a cmical
              role in the 2009 and 2010 elections. 1he transformation of the project to a capac11y b111ldinl!,
              prog/'(/111 111 the post-e!ecuon penod developed 111£0 a challenge. The Office of Democracy
              and Governance discussed the temunat ton 11111h the Al1ss1on Di rector. .\11 ss1on .A Ianagement.
              U.S. Embassy POL section and USAID Washmgton. It was deremuned that the techmca/
              office should proceed with termmation of the contract based on the post-elect10n needs of the
              JJ.::C. The post-election need for capacity-buildmg of the JJJ'C was not the onginalfoc11s of
              the program. rather. Its focus was towards pre-election and election needs. such as technical
              and logis1ical assiswnce at the election planning and implementation stages. / Is a result,
              resources spent were not gomg to meet USAJD 'sand llJ'C 's needs or yield the results
              reqwred. The techmcal qf!ice worked with JFJJ'S on budget real1gn111enrs bw achieved only
              limited success. !FF.S did not demonstrate an ability to e 1·0/ve quickly to the changing needs
              o_(the JJ::C and changing resource c/1111ate. (Please see Annex 3)

                      Awa1·d No. AID-30(..-RC-13-00005: o funds were expended during the six months
                      this project was active. What actions wen: taken by USAlD and its contractor to
                      faci litate cooperation with the Afghan Supreme Court? Describe what oth er USAlD
                      projects or programs invo lve the Supreme Comt and whether they are in jeopardy of
                      being terminated/canceled?

              Cooperation with the Supreme Court was not ofis.me in the pe1:(ormance o_(work. but rather
              securify-related events. including a bombing at the.facility, and lack ofcoordination of
              Supreme Court ad1mmstraUve sta_ff w1th management in scheduling the assessment. Over the
               course o.(the estimated period ofperformance, USAID made m11lt1ple attempts to schedule
               and reschedule an entrance conference and the field work lt'lfh the J\ f1111slfJ 1 of
              Jus//ce 'Supreme Court. The call order was extended three r1111es. (Aiodificat1ons 1. 2 and 3).
              an additional 5-1 2 months. There are no other USA!D pr()fects or programs mth the
              Supreme Court at this tune. (Please see Annex 10 and supportmg doc11111entat1on 11·1thm the
              folderfor this award)

                      Award No. 306-0-00-00533-00: According to infomiation furnished by USAID, the
                      United Nations Office for Projects fai led to cooperate with the contractor hired by
                      USAID to conduct an audit. What actions were taken to resolve the impasse? How
                      was the issue of the audit resolved? Was it ever conducted? What was the total value
                      of the Kabul School Constmcti on project lhal was Lhe focus o f the audit?




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                            Page 13
                                                             7



              Durmg the course ofthe a11d1r process. rhe m1d1r firm 11·as unable to examine ewdence.
               systems and processes. orfinancial documentation to conduct the a11di1 se1vices reqwred.
               The 1nc11rred cosr audtl was never conducted. The a11dil purchase order was canceled per
               request of the OJG based on the agreed use ofthe UNOPS SOW/or a11d1t services and not the
              SOW o(USAID OJG. The tof(ll val11e ofthe Kabul School Construction project was
              $30, 75+.•r2.for two h1~h schools and several smaller schools m Kab11!. (I'lease see Alemo
              for Record. w1thm the folderfor th1s award. and. Innex 11 J

                     Award No. AID-306-BC- 13-00009: What actions were taken by USAID and its
                     contractor lo facilitate cooperation with the Ministry of Counter arcolics? What
                     other USAlD programs the 1,.:onccm Min istry of Com1ter Narcotics and are any of
                     those con1rncls in j eopardy of being tenninated/canceled?

              TheAfrmslry of Counter Narcotics repeatedly expressed concern m having 1/s records
              reviewed and exa1111ned by an outside agency. based on the confidentwltf)• of Its records.
              USAID is working wirh the Ahmsrry ~(Counter Narcotics under rhe Kcmdahar Food Zone
              coopera11ve agreement !n1erna11onul Re/Jefand Development, fnc.. AlD-306-.A- 13-00()08,
              Sl8.695,80./. J11ly 2013-June 2015. This coopera111·e agreement ts no/ m JeopardJ• of being
              termmared. (P/e(lse see Annex 12)


              6. Award No. 306-A-00-06-00506-00: After the Academy for Educational D.:velopment was
              sus pended, did USATD conduct a cost incurred audit to detem1ine the ftnal disbursement and
              whether there were any questionable costs? lfso, provide supporting documentation. Were
              the activities being carried out under this contract re-solicited? 1f so, provide the contract
              number, award date, and the name of the contractor. After AED was StL<;pended, were audits
              conducted on all USAID-funded A.ED projects in Afghanistan?

              rf'fe(lse see Annex 13). The award was nor rem1inated. bw only suspended. A./rer che l(fung
              ofthe :mspension. pe1/omwnce continued through the crward r:xpm1tion date . .\'o cost-
              mc11rred (mdtl was pe1/or111ed on the suspended pro_1ect.


              7. Award No. DfD-1-00-05-00248: Provide a copy of the final USAID Office oflnspector
              General Investigation Repo1t to include the end result and recommendations.

              (Please see . lnnex 1./) Copies ofUJG invesligalton reports are not routinely proVJded lo 01UI
              or OF.A,,/. USAID refers SJGAR to the DIG.for a copy q(the report.


              8. Award No. 306-IL- 10-04-0 1: 111e funds in this program were on-budget funds. Is there a
              lessons learned document or pos1 cancellation review that was produced relating to USAJ D's
              experience with this program? What did the November 30, 20 12, audit conclude about the
              $2,286,979.20 a lready spent? Prior to signing an hnplementation Letter, a number of
              assessments should be conducted (including a Public Financial Management Risk
              Assessment) what determinations did the Mission make regarding the strengths of the
              Independent Directorate for Local Govemance's internal controls and ability to disburse
              fu nds?




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                        Page 14
                                                              8


              Arc there lessons lcan1cd docwncnt or post cancellation review that was produced
              relating to USAID"s expeiicnec with this program?

                 Implementing activities in a war zone is challenging and d{tJicu/t especially ·with constant
                 rotation ofstajf but Ailssion has learned from these challenges and is constantly
                 evaluating and improving its implementation techmques. 1 he M1 ssion conducted some
                 reviews!evaluauons or1 the DDP project, an evaluation by Checcfu, a monitoring review
                 hy KPM<T, an audit hy Kii-fP<T, and an iniernal review r~(lhe hillmg documenis.

              \\bat did the   ~ovember   30, 2012, audit conclude about the $2,286,979.20 already spent?

                 The auditors issued a d1Sclaimer ofopinion on the schedule of costs, because they were
                 not provided all the req111red informarionfiwn JJJLG. Based on their LimUed review the
                 aud1!ors quesl10ned $1,883,947 ofthe $2,240.819 oftotal cosis incurred.

              Piior to signing m1 Implementation Letter, a number of assessments should be
              conducted (in duding a Public Financial Management Risk Assessment) what
              detenninations did the .\'.lission make re~ardin~ the strengths of the Independent
              Directorate for Local Governance's intenial controls and ability to disburse funds?

                 'J'he JJistrict JJelivery l~rogram (JJJJJ-') at the JLlLG started before the issuance o/ALlS
                 220, which required the Public Financial Management Risk,;lssessment. Therefore rhe
                 requiremem fhr a P F'~IRA' F' was noJ ltppli cable.

                 Supporting the IDLG to help stand up local government was considered as a critical
                 foreign policy priorityfor post-conflict stabilization, and to be ir1 the best interest of' the
                 U.S. Government to implement delivery o_fservices in key districts. ,\'onetheless the
                 A.fission recognized the risks within the IDLG. and made a determination nor to re~}' on its
                 sysiems. The lvfission relied mslead on the l'vfinisfry rl Finance (MoF) .1yslems, !he
                 Mimstry responsible.for receiving. disbursing. and recording thejimds receivedfor the
                  benefit (f TJTJT'. Rased on that delermmalwn, the Mission assessed ihe A·foF 's .1ysiems
                 and itfound that it had adequate.financial management capacity to e{fectively and
                 efficienlly record and account for USA TTJ fimd~. f1Vhile .lvf()F' was 1he cuslodwn fhr
                 USAID jimds, the MOF and US.AID still reqwred the IDLG to submit supporting
                 documemati on for d1 sbursernents.



              9. For each of the following, provide tl.1rther explanation for the tem1ination/cancelation.
                      Award Ko. AID-306-T0-12-00012: Provide the initial request for proposal or
                     requirement at Lhe Lime or award. \Vhat factors led lo Lhe broadening or the program
                     slrah::gy and why wen:: these radon; nol identified al Lhe time or the award?

              f'lease see supporting documentation. within thefolderfor this award, including the Request
             .for Proposals. For factors leading to the broadening of the program, (Please see Annex 4)

                     A\vard Ko. 306-C-00-11-00526: Explain the delays in mobilization (outside of the
                     contractor's control) that caused this project to be canceled.




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                            Page 15
                                                                9



              (Ph~'IS£! see . Inne.x 8)

                      Award No. 306-1- 15-06-0051 7-00: Explain further the reason for the customs delays
                      and visa problems. Wi..-re viabh.: alternatives/workarounds s uch as the use of other
                      personnel lo pcrfom1 the work identified as a means to mitigate lhe schedule delays
                      and all ow the program to proceed? Ifso. provide supporting documentat ion.

              (Please see . lnnex 9)

                      Award No. A ID-0 -00-08-00522-00: Provide speci ficity as to why "the contractor
                      could not proceed witb the assigned aud it."'

              Sec1mty concerns.      (I'lea~e   Jee Annex 16)


              l 0. Has US AID canceled or terminated any additional projects or programs, other than the 17
              referenced above, since 2008? Did USAID cancel or tenninate a contract, cooperative
              agreement, or grant dealing with road construction that involved International Relief and
              Development? If so, please provide the same infonnation for each project or program as
              requested in question number one.

              Tll'o addi11onal awards have been ter111111ated other thun the 1""' referenced abo1·e - AJD-306-
              C-I :!-00006ilgric11lwre Research and F.xtension Development Program r.·IURF.D) and ,1/D-
              306-T0-13-0()()02 lrngatron and fl"atershecnlanagementProgram (JW\JP). (Please see
              list ofPro_[ects and Progmms Temunated Co nee/led. and Annex 1- and 18 for bnef
              explanation/or the termination). l 'SA ID de-scoped a Strategic Provincial Road!. project
              with JJW, brd no len111nal1ons.




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                          Page 16
                                                USAIO/AFGHANISTAN TERMINATED PROJECTS (2008-2013)

                                                                     FACT SHEETS

       OVERVIEW:

             1. Scope: USAID/Afghanistan managed 356 awards with a tota l value of $12.6 Billion from 2008-2013. Out of
                    these 17 (or 5%) were terminated by the M ission. The tota l value of the terminated awards was $603 million
                    (or 5%) of the total portfolio, of w hich only S237 million (or 39%) were disbursed.


             2. USAID's decisions to terminate and re-focus programming were the ou~ome of a deliberative, analytical
                    process, influenced by several factors, many of which were beyond USAID's direct control :
                    a. Security and Violence: The areas in which USAID's programs w ere implemented, particularly the
                          southern and eastern parts of the country, were and continue to be highly kinetic and subject to violerlt
                          insurgent attacks. As a result, program implementation and the ability of t he USAID partners to
                          com plete work in some areas was greatly hindered. Completing the envisioned activities became costly
                          and difficult at best, and at times, sim ply impossible (e.g. • AMDEP. Design and Construction of ~ i gh e r
                           Education Facilities, SPR).

                    b. Sllifts in USG Strategy and Us.AID Priorities: Dunng the 2010 Kabul Con ference, the USG committed to
                          align mg 80% o f the development assista nce to Afghanista n w ith the National Priority Programs and to
                          delivering SO"~ of that asststance through on-budget m echanisms. In addition and as a consequence, in
                           2011 USAID revised its development approach in Afghanistan to focus on " foundational investments/'
                           mainly In Infra structure and economic growth. The necessity to respond to Afghan national priorities,
                          coupled with USAIO's strategic re-direction led to a re-assessment of the programmatic focus o f projects,
                          and in some cases, to their termination (e.g. Watershed Restoration in Ghor, AM DEP, STEP, APAP II).

                    c.. Complexity of Work and the Operating Environment: In addi t ion to the difficult securitY environment,
                          conducting normal, day-to-day business operations in Afghanistan was, and continues to be challenging
                          at best . The projects USAID implements are large, logistically complex and often times require local
                          cooperation and capacity to achieve their intended results. For some of them, logistical difficulties
                           (visas, transport, customs, ta>ees1 etc.) hindered progress; in others, systemic deficie ncies, flaws and lack
                          of local contractor capacity were encountered, ca using USAID to stop work, despite achievements (e.g.
                           LGCD, Sheberghan Gas Fields, ACEP)


             3. USAID's program t erminations safeguarded taxpayer dollars and increased the effectiveness of
                    development assistance. USAID views terminations o f programs as a last resort The preference, both from
                    a programmatic and cost-effectiveness st andpoint, is to re-adjust foe.us to track implementation rea lities
                    within a program, modifying work if at all possible, within contractual parameters. In making the decision to
                    terminate programs that were no longer viable or effective given policy priorities and the cha llenging
                    Afghanistan environment, USAID safeguarded and put to better development use, o ver $365 m illion of
                    taxpayer dollars. The results achieved during thei r performance helped build the foundations of new
                    programs, intri nsically valuable, even though incomplete. For example, eve n though the STEP program was
                    terminated before its end date, the support that USAID provided through it strengthened the electoral
                    authority in Afghanista n and improved t he planning and implementation of both the 2009 and 2010
                    elections. (Other examples: The Watershed project, Design and Construction of Higher Education facilities,
                    Sheberghan Gas Field, LGCD).




       Termu1«.t.ed Project:s- f'.act Sft.e•b
       5oYJ'OO<OM/Af&h•mrtll n Files                                                                                                 P•&• l




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                                  Page 17
       ANNEXl.                    VlllAGE-BASED WATERSHED RESTORATION IN GHOR

       Cooperative Agreement: 306-A-00-07-00504 (IMPLEMENTER: Catholic Relief Services)
       Original TEC: $592,057; Revised TEC: $5,591,985; TEC at Termination: $5,591,985
       Amount Disbursed: $1,440, 606
       Estimated Completion Date : lune 30, 2011
       Termination Date: June 23, 2010

                 DOCUMENT                                                   IN FILE
                 Action Memo from Mission Director                          Yes
                 Notice of Termination                                      No
                 SF-30 orSettlement Agreement                               Ye$
                 Negotiation Memo                                           Yes

       Purpose of the Project: To improve water security for home consumption and for irrigation by rehabilitating
       watersheds located within the target villages and through water conservation techniques. At least 30 rural
       communities and their watersheds in five districts of Ghor province were to benefit.

       Reasons for Termination:

             •      Although progress was on track to completing performance and delivering the results, USAID, in consultation
                    with the recipient noticed overlap between this activity and another, exi.s ting project implemented by the
                    same recipient (CRS).
             •      Jn order to avoid duplication of effort and resources, USAID took measures to combine the two projects
                    (Ghor Watershed project and the Agro-Enterprise Development Alliance) into one activity: The Agro·
                    Enterprise Development Alliance (ADA).
             •      ADA was expanded to include the Ghor Watershed activities.


       Benefits ofUSAlD's ActioM:


             •      Combination of the two projects led 1D greater synergy of activities and enhanced effectiveness of
                    technical assistance. As      both projects' ultimate purpose was to increase rural incomes by increasing
                    economic opportunities through improved productivity in agriculture, combining the two integrated
                    activities better, making technical assistance more effective and results oriented. For example, availability of
                    water for domestic and agriculture use depends on the conditions of the watersheds. limited water for
                    irrigation and domestic consumption is one of the major barriers to el<panding production for high -value licit
                    crops in Ghor province.
             •      Given that both projects had complementary objectives and were implemented by the same recipient
                    (CRS), combining ttiem led to greater efficiencies and cost savings, In terminating this project and folding
                    activities under the ADA project, the government saved over $2.5 million ($4,S million were saved by
                    terminating the Watershed project, but ADA was expa nded by $2 million; thus, net savin gs were $2.5
                    million).

       Results Achieved Prior to Termination:

             •      The new expanded ADA project continued to build on the results of the Watershed project. By integrating
                    activities of the two, USAID increased the potential development impact and the results envisioned under
                    the Watershed project, while minimizing cost Results include, but are not limited to : at least 200 farmers in



       Terml!lilted Proiec;ts. f'f c;t Sitee.b-
       5oyro.-; OM/Af&hn111rt11 n Files                                                                                         P•cez




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                            Page 18
                    7   watersheds were tra ined in small-scale water-harvesting, and villages il1   7   watersheds fiave esta blished
                    community plans for watershed restoration ci nd monitoring o f resource health.




       Terrni ni.t•d Proiec;.ts- f'f(t Sl\e• h-
       5oYr<"" OM/Af&homm n files                                                                                                    P•&• 3




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                                  Page 19
       ANNEX2.                AFGHANISTAN MEDIA DEVELOPMENT AND EMPOWERMENT PROJECT (AMDEP) - MOBILE KHABAR

       Contract: 306-C-00-11-00517-00 (IMPLEMENTER: Motion Matters)
       Original TEC: $6, 709,890.35; Revised TEC: $16,380,627.37
       Amount Disbursed: $1,990,487.17
       Estimated Completion Date: February 231 2012
       Termination Date: October 15, 2011

                 DOCUMENT                                                 INALE
                 Action Memo from Mission Director                        Yes
                 Notice of Termination                                    Yi:;s
                 SF--30 or Settlement Agreement                           No      In pmgress
                 Negotiation Memo                                         :-Jo    In pl'Ogress

       Purpose of the Project: To provide Afghans with improved access to information and to empower loca l m edia. The
       program was to help create a news service for collecting all available news content and making it available to
       Afghans via their mobile phones.

       Reasons for Termination:

            •     This contract was awarded on February 23, 2011 lo Motion Matters. On March 29, 2011, lnnovim, LLC filed
                  a timely protest to the GAO. In accordance with federal regulations, the Contracting Officer notified Motion
                  Matters (the contractor) to suspend performance, on March 31, 20111 a month after the contractor had
                  mobilized.
            •     As the Contracting Officer was preparing to take action in response to the protest, the Mission considered
                  once again the circumstances and viability of the envisioned program and decided to cancel the
                  procurement/award in it s entirety. Therefore, the issued contract to Motion Matters was terminated for the
                  convenience of the government on October 15, 2011.
             •    The decision to cancel the program was based on the following factors:
                              Media Sector Developments: The media sector in Afghanistan had grown fast in lhe time period
                              between the program design (2009) and contract award. Multiple donor activities and private sector
                              investment had in the meantime changed the relevancy and potential effectiveness of USAID's
                              envisioned assistance.
                              Transition: With the announcement of planned troop w ithdrawal and the planned transition
                              towards Afghan ownership and leadership on d evelopment, USAID Afghanistan revised its
                              development approach in 2011 to focus on '' foundational investments" involving key shifts to basic
                              infrastructure and economic foundations. As a result, this project no longer fit that development
                              focus.
                              Aid Effectiveness: In accordance with Kabul Conference commitments, 80% of development
                              assistance in Afghanista n needed to align with National Priority Programs (NPP) of GIRoA. This
                              would entail, among other things, closer coordination with GIRoA on future activities, and closer
                              linkages to the NPP, which this program would be la cking.
                              Conflict Environment: The security situation continued to deteriorate in many areas of Afghanistan.
                              Insurgent attacks were on the rise, particularly against media outlets that broadcasted on women's
                              rights. Any new program related to media development needed to take into account this shifting
                              risk profile, for It to be effective i n promoting independent media and reaching target populations.
                              The program, as designed, did not account for the recent conflict environment.


       Benefits of USAJD's Actions:
       T•rmlM.ted Proiectt F-.act S~ets.-
       5oYrce: OM/Alehanimn Files                                                                                               P•&e4




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                               Page 20
              •      USAID investment was re-focused on fore ign policy strategic priorities. To m eet the USG comm itments an
                     fore ign assistance and its alignmentwith Afghan national priorities, USAID shifted its resources in line with
                     those priori ties.
              •      Recognizing the rapidly changing market a nd conflict environment, USAID put to better use $14 million of
                     taxpiiyer funds. USAID's re-a ssessment of the pro gram o bjectfves, the dyna mic development need, and the
                     changing security situat ion o n the ground, led to the prudent conclusion to not continue with a program that
                     no longer remained re levant.

       Resul~        Achieved Prior to Termination;

              •      This contract was active only for one month. The amount disbursed to the contractor was the cost of
                     mobilization and ra pid de-mobiliza tion.




       Tu·rnini.t• d Proiec;.ts- f'f (t Sft.e•.b-
       5oyro.-; OM/Af&hn111rt11 n Files                                                                                        P•&• s




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                            Page 21
       ANNEX3.                  SUPPORT TO THE ELECTORAL PROCESS IN AFGHANISTAN (STEP)

       Contract: DFD-1-00-05-00225 (IMPLEMENTER: IFES)
       Original TEC: $67,354,793; Revised TEC: $67,381,704; Re- Revised TEC: $79,340,182; TECat Termination :
       $79,340,182
       Amount Disbursed : $69,201,895.88
       Estimated Completion Date: August 31, 2012
       Terminatio n Date: January 18, 2012

                 DOCUMENT                                                 IN FILE
                 Action Memo from M ission Director                       Yes
                 Notice of Termination                                    No
                 SF-30 or Settlement Agreement                            No - In progress
                 Negotiation Memo                                         No - In prol!rcss


       Purpose of the Project: To support increased electoral capacity and improved electoral administration in
       Afghanistan through the provision of technical and logistical assistance to the Afghan Independent Elections
       Comm ission (IEC).

       Reasons forTermiliation:

             •     On January 9, 2012, the Chief Electoral Offic.er of IEC req uested that USAID modify its assistance provided to
                   IEC through STEP and combine it with the concurrent UNDP ELECT program, also providing support during
                   and in-between elections.
             •     After extensive consultation with IFES, IEC and t he USAID Mission, the Elections team lead of the Mission
                   requested that the Contracting Officer term inate the program for convenience, as it was no longer meeting
                   the needs of USAID's principle counterpart, the IEC.
             •     While STEP played a critical role in 2009 and 2010 elections, the transformation of the project to a capacity
                   building program in the post-election period remained a challenge. This was not the foc11s of the program.
                   As a result, resources spent were not going to riieet USAID's and IEC's needs or yield tile results required.

       Benefits of USAJD's Actions:


             •     USAID re-aligned its programming with GIRoA's priorities, as committed to in the Kabul Conference. Upon
                   coming to the com;lusion that USAID's program was no longer meeting the IEC's need s, USAID took action. to
                   re-align its programming with GIRoA's priorities and safeguard the results achieved.

       Results Achieved Prior to Termination:

             •     STEP was critical rn ensuring timely Implementation of the 2009 and 2010 elections In Afghanistan. As
                   recognized by the Chief of IEC, in his letter to USAIO's M ission Director, the STEP program strengthened the
                   electoral authority in Afghanistan and improved the planning and implementation of both elections.




       Tu·rnlni!• d Proiectt F--1ct Stt.ets.
       So"'°""   OM/Alehanimn Files




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                            Page 22
       ANNEX4.               AFGHANISTAN PARLIAMENTARY ASSISTANCE PROGRAM II (APAP II)

       Contract: AID-306-T0-12-00012 (IMPLEMENTER: DAI)
       Original TEC: $15,975,306; TEC at Termination : $73,016
       Amount Disbursed:           $71,553.76
       Estimated Completion Date: August 31, 2015
       Termination Date: December 6, 2012

            DOCUMENT                                            IN FILE
            Action Memo from Mission Director                   Yes
            Notice of Termination                               Yes
            SF--30 orSettlem ent Agreement                      Yes
            Negotiation Memo                                    Yes
       Purpose of the Project: To support the development of the Afghan Parliament to enable it to opera te as an
       Independent and effective legislative, representative and oversight body.

       Reasons for Termination :

            •     Tw o t imely protests filed w1th the GAO l n early September 2012, provided an opportunity for the Office of
                  Democracy and Governance (ODG) team to re-assess the validity of the APAP II design.
            •     In an action memorandum, signed by the M ission Director, the ODG Director laid out a rationale for why the
                  APAP II program, as designed, would not be as effective as it could be, without an expansion in scope.
                  Hence, a case was made, and the Mission Director agreed, for a new, re-designed and expanded program
                  titled Assistance to Legislative Bodies of Afghanista n (ALBA).
            •     The essential difference between APAP II and ALBA was that APAP II focused primarily on im proving the
                  capacity of the Nationa l Assembly's lower house (the Wolesi Jirga (WJ)) in terms of legislative support,
                  oversight and public outreach. The new ALBA program on the other hand, broadened the USAID assistanci!
                  by working with both houses of the National Assembly, to include the Meshrano Jirga (MJ). This was a
                  significant change jn the design, necessitating re-solicitation.


       Benefits of USAJD's Actions:


            •     A revised USAID assistance strategy, broadened by working with both WJ and MJ would build linkages
                  between the National Assembly and Provincial Councils, having a direct, integrated impact on improved
                  local governance. While the WJ is a more powerful legislative body, the MJ has special constitutiona l
                  authorities on l egi~l atio n , budget issues and oversigh t . The MJ also holds special status i n Afghanistan's
                  political society and an Important link between the provi ncial and national level governance bodies.
                  Therefore, integration of assistance to both houses of the National Assembly would make it m uch more
                  effective and impactful.
            •     In lieu of issuing two separ.ite contracts (one for MJ and one for WJ), USAJD consolidated impact,
                  integration of results and activities and saved redundant costs. Providing assistance to MJ separately
                  would have entailed a second contract and all associated costs, could have duplica ted efforts and increased
                  cost and administrative burden. By combining the two, development impact was maximized and so were
                  the resources.

       Results Achieved Prior to Termination:

            •     Amount disbursed related to mobilization costs.



       Term111U ed Projecttf'-1ct S~•ts-
       5oYrce: OM/Alehanimn Files                                                                                                     P•&•7




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                                  Page 23
       ANNEXS.                 RULE OF LAW STABILIZATION (RLS) PROGRAM

       Contract: 306-C-00-10-00506-00 (IMPLEMENTER: Checchi and Company Consulting)
       Original TEC (Base• Options): $1 23,689, 316; TEC at Te rmination: $5,001,000
       Amount Disbursed: $593,537.72
       Estimated Completion Date : Decem ber 31, 2014 (after 2 option years)
       Termination Date: January 26, 2010

                 DOCUMENT                                               IN FILE
                 Action Memo from Mission Director                      NIA
                 Notice of Termination                                  Yes
                 SF--30 or Settlem ent Agreement                        No
                 Negotiation Memo                                       Yes

       Purpose of the Project: To d evelop the ca pacity of Afghanistan's jUstic.e system to be accessibl e, reliable and fair.

       Reasons for Termination:

             •     Upon contract award on January 4, 2010, the Contracting Offker was m<1de aware that a protest had been
                   filed prio r to contract signature on December 31, 2009. The Contracting Officer had no knowledge of this
                   protest, as it was delivered to the GAO. Upon consultations with USAID/Washington General Counsel's
                   Offic.e, it was determined that regardless of the merits of the protest (which was improperly filed), the award
                   itself was in fact tainted because it was issued AFTER a timely protest . Therefore, a Termination for
                   Convenience was effected by the Contracting Office r.


       Benefits ofUSAlD's Actions:


             •     Government was protected from further litigation and terminated in accordance with federal
                   procurement requirements. Continuation of the stay of performance, while litigati ng the propriety of the
                   filed protest would have resulted in additional costs to the government, both in administrative burden and
                   ''suspension costs" of the active contract. Termination curtaile d those costs.

       Results Achieved Prior to Termination:

             •     It is assumed that amount disbursed relate d to mobiliza tion costs, though no settlement agreement can be
                   located in the files.




       Tarm111U.ad Proiectt f--1ct Stt.ets.
       5oYrce: OM /Alehammn Files                                                                                            P•ae s




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                           Page 24
       ANNEX6.                 DESIGN AND CONSTRUCTION OF HIGHER EDUCATION FACILITIES

       Contract: 306-P-00-08-00520 ( IMPLEMENTER: US Army Corps of Engineers (USACE))
       OriginalTEC: $17,120,655; TECatTermination: $9,777,01 4.74
       Amount Disbursed: $8, 529,098.77
       Estimated Completion Date: September 30, 2013
       Termination Date: January 15, 2013

       DOCUMENT                                                   INRLf
       Action M emo from M ission Director                        Yes. but from OEGI Office Director
       Notice of Termination                                      Yes
       SF-30 or Settlement Agreement                              Not required b ecause this was an IAA
       Negotiation Memo                                           Yes

       Purpose of the Project: To design and construct 16 higher educa tion facil ities In va rio us provinces in Afghanistan.

       Reasons for Termination :

             •     During Implementation, USACE (the implementer), found it e><tremely difficult to complete the 16 buildings
                   due to the worsening securltv situation throughout the coun try.
             •     Through discussions between USAID and USACE, the project was de-scoped from 16 buildings to 6 buildings.
             •     USACE completed 3 buildings, but found it extremely difficult to get contractors to take on the remaining
                   work, having to terminate two contracts.
             •     The areas In which USAID's programs were implemented, particularly the southern and eastern parts of the
                   country, were and continue to be highly kinetic and subject to violen t insurgent attacks. As a result, program
                   implementation and the ability of the USAID partners to com plete work in some areas was greatly hindered.
                   Completing the envisioned ac;tivities became costly and diffitult at best, and at t imes, simply Impossible.


       Benefits ofUSAlD's Actions:


             •     Government was protected when USAID determined that taxpayer resources could be more effectively
                   utilized by completing the work through a different mechanism.
             •     USAID could complete the remaining three facilities at a lower price, saving taxpayer do llars.
             •     Since this was an IAA, there were no adverse effects from terminating for convenience (e.g. no settlementj.

       Results Achieved Prior to Termination:

             •     Despite delays and an insecure environment, 3 buildings were completed and are now being utilized to
                   further the education system in Afghanistan. USACEcompleted and turned over 3 buildings to the Afgha11
                   M inist ry of Higher Education.




       Tarm111U.ad Proiectt f--1ct Stt.ets.
       5oYrce: OM/Alehanim n Files




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                           Page 25
       ANNEX7.                     l<ABUL UNIVERSITY MEN' S DORMITORY RENOVATION

       Contract: 306-C-00-09-00505 (IMPLEMENTER: lakeshore Engineering Services)
       Original TEC: $ 7,133,830.30; TEC at Termination : $1,502, 620.00
       Amount Disbursed: $1, 396,881.07
       Estimated Completion Date : May 31, 2010
       Termination Date: July 2, 2010

       DOCUMENT                                                     IN Alf
       Action Memo from Mission Director                            No
       Notice of Termination                                        Yes
       SF· 30 or Settlement Agreement                               Yes
       Negotiation Memo                                              Yes

       Purpose ofthe Project: To renovate the men's dormitory at the University of Kabul and design and construct a new
       dining facility.

       Reasons forTermination:

              •      USAID COR had serious concerns regarding the quality of work of the contractor, but Lhese were contested
                     by the contractor.
              •      USAID CO had serious concerns relating to health and safety, especially workers' exposure to asbestos, and
                     issued a suspension of work order due to the safety concerns.
              •      USAID's legal counsel and the CO, after extensive analysis, determined that there was not enough cause to
                     terminate for default and instead decided to terminate for convenience.


       Benefits ofUSAID's Actions:


              •      USAID decided to protect workers from harmful contaminants by ending the contract in the most
                     expedient and cost effective manner, and completed the project using another contractor.
              •      Instead of allowing a contractor to continue potentially defective work and potentially expose its workers to
                     harmful contam inants, USAID decided to terminate the awa rd.
              •      USAID did not receive a defect ive building which would have cost just as much to repair.

       Results Achieved Prior to Termination:

              •      Partially completed renovation and partial designs for ttie dining facility,




       Tu·rnini.t• d Proiec;.ts- f'f(t Sft.e•.b-
       5oyro.-; OM/Af&hn111rt11 n Files                                                                                      P•C" !O




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                           Page 26
       ANNEX8.                     COMME~CIAL      AIR SERVICES IN AFGHANISTAN

       Contract: 306-C-00-11-00526 (IMPLEMENTER: M esopotamia Group Services)
       TEC: $ 6,499,500
       Amount Disbursed: $0
       Estimated Completion Date: October 21, 2012
       Termination Date: June 14, 2012

       DOCUMENT                                                       INALE
       Action M emo from Mission Director                            No. but concurrence from COR and OEGI
       Notice o f Termination                                        Yes
       SF-30 or Settlement Agreement                                  No (settlement was not ex11ected)
       Negotiation Memo                                               Yes

       Purpose of the Project: To provide l.JSAJD/Afghanistan with commerdal air services, primarily rotary aircraft..

       Reasons for Termination:

              •      Contractor was unable to provide the required rotary aircraft due to delays in aircraft certificatio 11 in South
                     Africa.
              •      Based on discussions and guidance from USAID's Assistant General Counsel for Litigation and Enforcement,
                     contract was terminated for convenience as the services were no longer required by tire US Government and
                     no money would be paid to the contractor.


       Benefits ofUSAID' s Actions:


              •     The Government, through decisive action, ended the contract in the most cost effective manner and
                     ensured that no taxpayer money was paid to the contractor. Services were no longer required and any
                     further continuation of the contract would (ead to unnecessary costs for taKpayers.
              •     Though the contractor did not meet the contract requirements, termination for default would have been
                    costly since the contractor would have fought the terminat ion and there were allegations that USAID had
                     breached the contract as well.

       Results Achieved Prior to Termination:

              •      None, though no money was pa id to the contractor.




       Terrni ni.t• d Proiec;.ts- f'f(t Sl\e• h-
       5oYr<"" OM/Af&homm n files                                                                                                P• ge   a




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                                  Page 27
       ANNEX9.                   SHEBERGHAN GAS FIELD

       Contract: 306-1-15-06-00517 (IMPLEMENTER: The Louis Berger Group)
       TEC: $11,897,839
       Amount Disbursed : $8,865,722.13
       Estimated Completion Date: August31 1 2009
       Termination Date: June 1, 2009

       DOCUMENT                                                    INALE
       Action Memo from Mission Director                           No
       Notice of Termination                                       Yes
       SF-30 or Settlement Agreement                               No (still in claims process)
       Negotiation Memo                                            No

       Purpose of the Project: To determine w hether the Sheherghan Gas Field is able to meet the life-time needs of a
       100MW power plant and, if cost effective, repair and rehabilitate e)(isting wells in the field to operational capability.

       Reasons forTermination:

             •      Contractor was not able to complete the work due to logistica l delays; Only one well (Yatim aq, Well #38 was
                    inspected).
             •      The USA ID/ Afghanistan RLA at the time provided guidance that a termination for default may not be
                    appropria te.


       Benefits ofUSAJD' s Actions:


             •      Although inspection of the viability of the existing wells is a costly proposition, USAID reco gnized that the
                    work was not going to be completed as envisioned and terminated, safeguarding $3M ,
             •      Because this award is in litigation, we are unable to discuss further details at this time.

       Results Achieved Prior to Ter.m ination:

             •      When the contractor ceased work, several hundred tons of drilling supplies, such as drilling mud, drilling
                    chemicals, expensive p ipe (casing and drill pipe), cable, and miscellaneous oi l-field g rade mechanical
                    equipment was turned over t o the Afghan Gas Company (M inistry of Mines a nd Petroleum-MOM P) . The
                    value of this material and equipment is approximately $1M.

             •      Well #38 has recently been re-wo rked and completed by TPAO, a drilling contractor operating for MOMP
                    and paid by Asia Development Bank. It was put into production (is producing gas at the present time) verv
                    quickly and cheaply because the work done left the well in a condition (cleaned out and ceady for
                    µerforation and logging) to start producing gas almost immediately. The value to MOMP of entering and
                    being able to start gas production immediately-Without site prep and re-drill work- is in the millions of
                    dollars.




       T•rmini.t• d Pro1ec;.ts. f'f(t S*te•.b-
       5oyro.-; OM/Af&hn111rt11n Files                                                                                          Page 12




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                              Page 28
       ANNEXlO.                  PRE-AWARD ASSESSMENT OF SUPREME COURT

       Contract: AID-306-BC-13-00005 (IMPLEMENTER: KPMG Afghanistan)
       TEC: $3S,7SO;TECatTermination: $16,706
       Amount Disbursed: $0.00
       Estimated Completion Date: November 30, 2013
       Termination Date: October 1, 2013

       DOCUMENT                                                  INRLE
       Action M emo from Mission Director                        No
       Notice of Termination                                     Yes
       SF-30 or Settlement Agreement                             Yes
       Negotiation Memo                                          Yes

       Purpose of the Project: To conduct a Public Financial Management Risk Assessment of the Supreme Court of
       Afghanistan.

       Reasons forTermination:

             •      The Supreme Court was unwilling to cooperate with the contractor which prevented them from performing
                    lhe wo rk.


       Benefrts ofUSAID's Actions:


             •      Though the contract was terminated, USAIDwas able to      asc~rtain   thatthe Supreme Court, atthat time,
                    was not suitable for direct assistance, thereby mitigating the future potenti;ll for misuse of taxpayer
                    dollars.
             •      USAID made every effort to get the Supreme Court to cooperate with the contractor, but they refused.
                    Instead of invest ing further, USAID made the conscious decision to terminate the award and save taMpayer
                    dollars.

       Results Achieved Prior to Termination:

             •      None; no funding disbursed.




       Terrni ni.t•d Proiec;.ts- f'f(t Sl\e•h-
       5oYr<"" OM/Af&homm n files                                                                                             P• ge 13




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                            Page 29
       ANNEX 11.,                AUDIT OF COSTS INCURRED BY UNOPS UNDER KABUL SCHOOL CONSTRUCTION PROGRAM

       Contract: 306-0-00-11-00533-00 (IMPLEMENTER: Zeeshan Ali and Co.)
       TEC: $25,850; TECat Termination : $5,406
       Amount Disbursed: $5,406
       Estimated Completion Date: Extended Frequently
       Termination Date: May 17, 2012

                 DOCUMENT                                               INHtE
                 Action Memo from Mission Director                      NIA
                 Notice o f Termination                                 Yes
                 SF--30 or Settlement Agreement                         Ye$
                 Negotiation Memo                                       Yes

       Purpose of the Project: To conduct an audit of costs incurred under the       UN OPS' Kabul School Construction Program.

       Reasons for Termination :

             •      UNOPS falled to cooperate w ith the auditors.


       Benefits ofUSAID's Actions.:


             •      Saved $20,000.

       Results Achieved Prior to Termination:

             •      None; payment wa s for i11itial desk review and all preparatory work and coordination effort.




       Terrni ni.t•d Proiec;.ts- f'f(t Sl\e•h-
       5oYr<"" OM/Af&homm n files




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                      Page 30
       ANNEXU.                   PRE-AWARD ASSESSMENT OF MINISTRY OF COUNTER NARCOTICS

       Contract: AID-306-BC-13-00009 (IMPLEMENTER: KPMG Afghanistan)
       TEC: $40,184.38; TEC at Termination : $16,349
       Amount Disbursed: $0.00
       Estimated Com pletion Date: August 28, 2013
       Termination Date: December 22., 2013

                 DOCUMENT                                               IN FILE
                 Action Memo from Mission Director                      No
                 Notice o f Termination                                 Yes
                 SF-30 or Settlem ent Agreeme11t                        Yes
                 Negotiation Memo                                       Yes

       Purpose ofthe Project: To conduct a Public Financial Management Risk Assessment of the Afghanistan Ministry ot
       Counter Narcotics

       Reasons forTermination:

             •      The M inistry of Counter Narcotics was unwilling to cooper.ate with the contractor which preven ted them
                    from performing the work.


       Benefits of USAID's Actions:

             •      Though the contract was terminated, USAID was able to ascertain that the Ministry of Counter Narcotics,
                    at that t ime, was not suitable for direct assistance, thereby mitigating the future potential for misuse of
                    taxpayer dollars.
             •      USAID made every effort to get the Ministry o f Counter Narcotics to cooperate with the contractor, but they
                    refused. instead of investing further, USAID made the conscious decision to term inate the awa rd and save
                    taxpayer dolla rs.

       Results Achieved Prior to Termination:

             •      None.




       Terrni ni.t•d Proiec;.ts- f'f(t Sl\e•h-
       5oYr<"" OM/Af&homm n files                                                                                           P•ge 15




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                            Page 31
       ANNEX13.                 HIGHER EDUCATION PROJECT

       Cooperative Agreement: 306-A-00-06-00506·00 (IMPLEMENTER: AED)
       OriginalTEC: $38,014,504; TECat Closeout: $46,741,095.51
       Amount Disbursed: $46,741,095.51
       Estimated Completion Date: January 31, 2011
       Termination Date: Program was SUSPENDED and t hen allowed tD end; not TERMINATED.

                 DOCUMENT                                               IN FILE
                 Action Memo from M ission Director                     NIA
                 Notice of Termination                                  NI A
                 SF-30 or Settlement Agreement                           NIA
                 Negotiation Memo                                        N/A

       Purpose of the Project: To improve the quality of pre-service teacher education .at four-year institutions of higher
       education.

       Reasons for Suspension:

             •     This was not a termination, bur was an awa rd that was simply allowed to expire at che appointed time. At
                   the time, AED had recently been suspended bv the Agency on December 8, 2010 because USAID's Office of
                   the Inspector General (OIG) found evidence of serious corporate misconduct, mismanagement, and a lack of
                   Internal controls, raising serious concerns of corporate integrity.
             •     However, the Agency Senior Procurement Executive mandated that, while the negotiations and investigation
                   was o n-going. the Agreement Officer w as not allowed to terminate and performance continued.

       Results Achieved:

             •     USAID's Higher Education Project (HEP) contributed to the improvement of leaming and teaching in 16
                   Afghah UhiVersities and institutes of higher education. HEP also contributed to building greater institu tional
                   capacity both at the education institutions and the Ministry of Higher Education.
             •     In total, 10,0SS Afghans from public universities and the Ministry of Higher Education were trained to
                   improve their teaching practices, research capabilities, and administrative practices.
             •     1 21 faculty members studied abroad, ensuring that they received a first-cla ss education and the most up-to-
                   date knowledge and skills to bring back to their teacher education institutions. Of l hose, 41 faculty members
                   (25 men, 15 women) received Master's Degrees. The Afghan Masters' graduates and Stud y Abroad returnee:>
                   cill believe that the programs were effective, and over 900,{, believe that their teaching practice has improved
                   significantly.
             •     HEP has been effective in improving the institutional leadership and processes at all faculties of education
                   and Ministry of Higher Education. 87% ofadminlstrators believe the change has been significant. The faculty
                   members support this view, for example 700;1. of the faculty members reported that they are more Involved
                   in decision making at the departments after HEP.




       Tu·r.n•nn•d Proiects- F--1ct S*te•.b -
       5oYro.-: OM/Af&h•ntrtll n Files                                                                                        Pa ge i 6




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                             Page 32
       ANNEX14.                     LOCAL GOVERNANCE COMMUN ITT DEVELOPMENT (LGCD)

       Contract: DFD-l-02-05-00248 (IMPLEMENTER: Associates Jn Rural Development, Inc. (ARD))
       Original TEC: $ 49,360,382; Revised TEC: $81,360,382; TEC at Termination: $551 9811241.56
       Amount Disbursed: $55,981,241.56
       Estimated Completion Oa te: September 26, 2010
       Termination Date: June 30, 2009

                  DOCUMENT                                                       rN FILE
                  Action Memo from M ission Director                             Yes
                  Notice of Termination                                          Yes
                  SF-30 or Settlement Agreement                                  Yes
                  Negotiation Memo                                               Yes

       Purpose of the Project: To 1) assist GIRoA in reaching at-risk populations in unstable areas by building capacity of
       provincial and local government officials to deliver services; 2) create an environm ent which enco urages loca l
       communities to take an active role in development; and 3) promote sta bility by addressing the underlying causes of
       violence and support for the insurgency.

       Reasons for Termination:

              •      Starting in December 2008. USAID's oversight (through CO and COR). supported by an on-going OIG
                     investigation, revealed vulnerabilities in the contractor's systems with regards to procurement, filing, project
                     tracki ng and monitoring, etc.
              •      DIG/ Investigations recommended anti USAID concurred that the program be closed as soon as possible. It
                     was determined by USAID that not enough time remained fo r the contractor to take cor rective action and a
                     termination for convenience was issued.
              •      USAID's COR and other officers i mplemented a detailed oversight program of each on-going activity from the
                     date of termination no tice (March 22, 2009) to termination date, including all grants and sub-contract
                     activities. A t ransition plan for the on-going activities to other existing USAID programs was also outlined, to-
                     ensure continuity of results.
              •      USAID has no record of the outcome of the OIG Investigation on this ma tter.


       Benefits of USAJD's Actions:


              •      Th rough the proper use of its monitoring and inspection systems and through close oversight, USAID was.
                     able identify issues with the contractor's systems and, through decisive action, ensured that remaining
                     resources were safeguarded. Th e early termination of the program resulted in over $25 million in
                     safeguarded funds, which were invested in other programs.

       Results Achieved Prior to Termination:

              •      Despite challenges, LGCD successfully:
                            ...     Assisted t he Government of Afghanistan to expand its reach into unstable areas and engage at-risk
                                    populations by bullding the capacity of provincial and loca l government officials to deliver services.
                                    and address citizen needs;
                                    Created an environment that encouraged local communities to take an active role in their own
                                    development, strengthening ties between these communities and the local government bodies; and



       Tu·r.n•n.:t• d Proiec;.ts- f'f (t Sltti•.b-
       5oYro.-:   OM/Af&hn111rt11 n Files                                                                                              Page 17




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                                       Page 33
                              Promoted stability by addressing the underlyJng causes of violence and support for insurgency in
                              Afghanistan .
             •    LGCO s uccessfully achieved the majority of Its envisioned targets including: building the capacity of local
                  governa nce bodies in all 17 provinces; mobilized communities in 58 reconciliation projects; provided skills
                  and training to community members; engaged citizens, specifically women, in their own development to
                  address the underlying ca uses fo r violence and support for the insurgency, which is lack of income;
                  successfully resolved conflicts between villages or tribes; and exceeded its targets with regards to Afghan
                  iobs created.




       Tarm111U.ad Proiecttf--1ct Stt.ets.
       5oYrce: OM/Alehanimn Files                                                                                           Page 18




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                          Page 34
       ANNEX15.                      STABILIZATION IN KEY AREAS - SOUTH

       Contract: AID-306-C-1HJOOOS (IMPLEMENTER: AECOM)
       TEC: $117, 324,445 (Base-+ Options)
       Amount Disbursed: $15,886,015.37
       Estimated Completion Date : April 91 2015
       Tem1ination Date: Notice == May 15, 2013, Effective == July 31, 2013

       DOCUMENT                                                      IN FILE
       Action Memo from Mission Director                             No
       Notice of Termination                                         Yes
       SF-30 or Settlement Agreement                                 No I11 pmgress
       Negotiation Memo                                              No In pt'Ogress

       Purpose of the Project: The purpose of the award was to promote stabilization in key areas by supporting GIRoA at
       the district and provincial level through community led development and governance issues.

       Reasons forTermination:

              •       An offeror tiled a protest with t he GAO after award of the contract. USAID agreed to take corrective action
                      and re-evaluate proposals and make a new award detennination. Due to the critica l need of the program by
                      both USAID and the LIS Military, the protested award was allowed to cont inue while the protest was
                      resolved.
              •       Since the new award was based on a revised evaluation, the current award needed to be terminated for
                      convenience and transitioned to the new award currently under implementation.


       Benefits of USAID's Actions:


              •       By terminating the award, USAID ensure that the integrity of the procurement process was maintained
                      and thus avoided further litigation. Integrity of the procurement process was ensured resulting In a fair and
                      equitable evaluation of all offerors for the awa rd.
              •       USAID's new SIKA program built upon the terminated program and re-aligned better with USAID's
                      objectives in ensuring stability in key areas. Specifica lly, the new program supports the Government of
                      Afgha nistan at the district level, while coordinating efforts at the provincial level, to implement community
                      led development and governanc.e initiatives that respond to the population's needs and concerns, building
                      confidence, stability, and increase the provision of basic services.

       Results Achieved Prior to Termination:

              •       Prior to termination, the efforts of the contractor directly supported the US Milltary in implementing the
                      counterinsurgency stf'ategy. Dur'ing the award, AECOM co ntinued to provide servlces throughout kinetic
                     areas in support of the US Military, turthering efforts to stabilize strategic areas of Afghanistan through a
                      community led approach.




       T•rrnini.t• d P roiec;.ts- f'f (t Sft.e• .b-
       5oyro.-; OM/Af&hn111rt11n Files                                                                                          P•ge !9




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                                Page 35
       ANNEX16.                    AUDIT OF COSTS INCURRED UNDER Tl-IE PROGRAM-ETAHKIM-E SOLH (PlS)

       Contract: 306-o-00-08-00522 (IMPLEM ENTER: Yousuf Adil Saleem)
       TEC: $9, 700; TEC at Termination: $5,440
       Amount Disbursed: $5,440
       Estimated Completion Date: September 24, 2008
       Termination Date: June 22, 2008

       DOCUMENT                                                   lNALf
       Action M emo from M ission Director                        No
       Notice of Termination                                      Yes
       SF-30 or Settlement Agreement                              Yes
       Nego tiation Memo                                          Yes

       Purpose of the Project: To conduct a financia l audit of costs ircurred under the PTS program.

       Reasons for Termination:

              •      Due to worsening security situations around Afghanistan. USAID determined that It was In its best interests
                     to term inate the audit since allowing the audit to continue would put the auditor in harm's way.


       Benefib ofUSAID's Actions:


              •      USAID decided ttiat the safety and security of its parb'lers was worth more than $5,440. Due to the
                     worsening sec.urity 1 the termination mit igated the potential of a USAID partner being targeted and harmed,

       Results Achieved Prior to Termination:

              •      None; the payment was for initial desk review/preparatory w ork.




       Terrni ni.t• d Proiec;.ts- f'f(t Sl\e• h-
       5oYr<"" OM/Af&hommn flies                                                                                             P•c• 20




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                             Page 36
       ANNEX 17.               AGRICULTURE RESEARCH AND EXTENSION DEVELOPMENT PROGRAM {AGRED)

       Contract: AID-306-C-12-00006 (IMPLEMENTER: ROOTS OF PEACE - ROP)
       TEC: $23,638,611; Revised TEC: TBD
       Amou nt Disbursed : $4,193,244.76
       Estimated Completion Date~ July 16, 2017
       Termination Date: May 31, 2014 (not the end date of performance)

       DOCUMENT                                                  IN FILE
       Action Memo for Mission Director                          Yes
       Notice o f Termination                                    Yes
       SF-30 or Settlement Agreement                             Settlement proposal due May 11, 2014
       Nego tiation Memo                                         In-process

       Purpose of the Project: To build the ca pacity o f the Government of the Isla mic Republic of Afghanistari's (G IRoA)
       M inistry of Agriculture, Irrigation and Livestock (MAIL) and Directorates of Agricult ure, Irrigat ion and Livestock (DAIL)
       to sustainably procure/develop and deploy productivity-enhancing technologies and best practices.

       Reasons for Terminating:

             •     USAID/Afgha nistari reviewed the scope of the subject contract and noted that its capacity building objectives
                   were overly ambitious and not feasible given the scope o f the national system, its geographical dispersion,
                   the extremely limited Ministry of Agriculture, Irrigation and Livestock (MAIL) human resource base and
                   endemic management cha llenges.
             •     As a result of the review, USAID made a decision to terminate the subject contract award for convenience.
             •     The termination is in process and ROP is expected to submit estimated settlements costs for negotiation.
                   The on-budget component of this program was included in t he Irrigation and Watershed Management
                   Program (IWM P)as stated below in (Reasons for Terminating) Annex 18.


       Benefits of USAID's Actions:


             •     USAID will refocus its approach to limit its support for agriculture research and extension to goals that are
                   congruent with its strategy and agricultural program in order to have a bigger impact on USAID program
                   objectives.

       Results Achieved Prior to Termination:

             •     ROP conducted 29 on-the-job trainings benefiting 652 farmers (577 male and 75 female), DAIL staff and
                   agriculture faculty students.




       Tu·r.n•nn•d Proiectt F--1ct stt.ets.
       So"'°""  OM/Alehanim n Files                                                                                          P• ge 21




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                            Page 37
       ANNEX18.                   IRRIGATION AND WATERSHED MANAGEMENT PROGRAM

       Contract: AID-306-T0-13-00002 (IMPLEMENTER: Perini Management Services, Inc.)
       TEC: $129, 963,114.00
       Amount Disbursed: $12,419,093
       Estimated Completion Date: December 19, 2017
       Date Agreed to No-Cost Settlement December 18, 2013

       DOCUMENT                                                   IN ALE
       Action Memo from Mission Director                          Yes
       Agreement to No-cost Settlement                            Yes
       SF-30 or Settlement Agreement                              In-progress
       Negotiation Memo                                           In-progress

       Purpose of the Project: To strengthening Afghan government and community-level capacity to hetter manage water
       resources to improve agricultural production and productivity in Afghanistan.

       Reasons for Terminating;

             •      USAID, recognizing performance problems and programmatic difficulties, determined thatcontlm.tlng the
                    program was not the best use of taxpayer dollars.
             •      During implementation of the program, USAID observed lagging performance in a number of areas. For
                    Instance, the contractor had difficulties fielding key personnel and failed to timely submit key planning
                    documents such as the activity Work Plan and Performance Management Plan. USAID was also dissatisfied
                    with t he quality of technical assessments prepared by the Contractor. However, some of the underlying
                    reasons for the poor performance were outside of the i;:ontrol of the implementer. Most of the work under
                    IWMP was devoted to technical assistance to the Ministry of Agrltulture, Irrigation, and Livestock (MAIL} and
                    majority of interventions were to be implemented by the MAIL through the on-budget component. MAI L's
                    lack of capacity had a detrimental effect on implementation of these interventions.


       Benefits ofTermination/No~ost Settlement


             •      USAID saved taxpayer funds by not continuing the program and avoiding lengthy and costly litigation.
                    USAID was able to avoid a lengthy settlement process by agreeing to a no-cost settlement, instead of
                    terminating the contract, thereby saving potentially mlllions of taxpayer dollars.

       Results Achieved During Performance:

             •      As part of the cap;1city development work, IWMP completed a Gender Implementation Plan. The
                    assessment was.a quality product and will be instrumental in USAID's future work as gender is one of the
                    most i mportant cross-cutting themes.
             •      A MAIL/DAIL Staffing Assessment was produced that descri bes the staffing pattern of the MAIL Irrigation
                    department and the MAIL natural resource management department. This will be useful for capacity
                    building components for future projects.




       T•rrnlnl.t•d Projec;.ts- F-.f(t S'1tl•b
       5oyro.-; OM/Af&hn111rt11n Files                                                                                          Page 22




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                              Page 38
ENCLOSURE II: SIGAR-14-44-SP INQUIRY LETTER: CANCELED USAID
CONTRACTS, DATED MARCH 25, 2014




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts   Page 39
             Your written answers to the two general quesbons posed in this lettar as well as the attached
             questions will assist my office 1n understanding how USAID uses program cancelabons and
             terminations to prevent waste. f raud and abuse . I am submitting this request pursuant to my
             authority under Public Law No. 110-181. as amended. and the Inspector General Act of 1.978, as
             amended . Please provlde the requested 1hformatton wlU11n 14 days of the date of this letter to Jack
             Mitchell. Director of the Office of Special Projects. at john_hmitchelr161civ@mail.mil or (703) 545-
             5964 . Please do not hesttat.e to contact him 1f you have any questions




                                                                           Sincerely




                                                                        /:~~
                                                                           Special Inspector General
                                                                            for Afghanis tan Reconstruction


              Enclosures.

                 1    Attachment I: Questions Rega1ding USAID Canceled Contracts
                 2    Attachment 11- USAID Response. dated December 15. 2013




             SIGAR-1 4-44SP Inquiry l etter. Canceled USAID Contracts                                         page2




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                               Page 40
              ATTACHMENT I: QUESTIONS REGARD ING USAID CANCELED CONTRACTS

              l . For each of the canceled 17 projects or programs, provide current information on the following.
                  •   Dollar value of each related implementing prime contract, grant and cooperative agreement
                  •   Total obligated amount of each implementing prime contract grant and cooperative
                      agreement the contract
                  •   Total amount spent on each implementing prime contract grant and cooperative agreement
                  •   Estimated cost to complete the terms of each terminated contract grant and cooperative
                      agreement as of the date of termination:
                  •   Highest total estimated cost during the life of the project or program .
                  •   Type of each implementing award, including whether rt 1s a contract (firm·fiXed·priced, cost·
                      plus-fixed-fee, etc.) grant or cooperative agreement
                  •   List of original implementing award (i.e., prime contract grant or cooperative agreement)
                      deliverables and documentation of any rnodrficaoons made over the life of the award ,
                      Including any outstanding or remaining work to be done at the time of
                      term1nat1on/cancelatlon:
                  •   Approved decision memorandum documenting tihe termination/ca ncelation:
                  •   Final Implementing award mod1ficatJon/amendment
                  •   Status of awa rd close out and any outstanding obligations such as additional disbursements
                      (actua l or estimated amount) due the implementer (i e , contractor, grantee or recipient of a
                      cooperative agreement),

                  •   Was there termination l1abi11ty on behalf of the government and. If so. how much:
                  •   Value to Afghanistan reconstruction achieved before termina tion/ca ncelation (1.e training
                      provided, capacity increased. construction completed), and .
                  •   Terminatio11 clause contai ned in the award ,

              2   According to the spreadsheet, the last terminated project/program ended on October 30. 2013
                  Have additional awards been terminated/canceled since that date? tf so provide the award
                  number, date of award, name of implementing partne1 , the total obligated and disbursed
                  amounts, and a brief e)lplanation for the termination/cancelation .

              3   Based on the information provided by USAID, 3 of the 17 projects (#306-C00-11-00517-00,
                  #306-C-00-11-00517-00. #AID-306-C-12-00005) were canceled due to bid protests. Does
                  USAID consider 3 bid protests out of 17 terminated awards to be the norm or unusually high for
                  a similar period of time? Please explain . Also. were subsequent actions taken by USAID to solicit
                  cont racts for the same requirements contained in the canceled projects? If so. provide the award
                  number. date of award , name of implementing partner, and total amount obligated and
                  disbursed_

              4   Please explain under what circumstances USAID would terminate an award for convenience after
                  the full. or nearly full. va lue of ttie award had been pa id Please explain why some awards were
                  terminated after a relatively short time span while others were terminated near the end of the
                  performance period . Please include in your response answers to the following questions.
                  •   Award No. 306-A00-07 ·00504: At the time of termination. roughly $1.4 million had been
                      expended over approximately 3 .5 years Explain which activities were folded into ot her
                      projects, the names of those projects, and associated award numbers.


             SIGAR-14-44-SP Inquiry Leite" Canceled USAID Contracts                                            Page 3




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                 Page 41
                  •   Award No 306-P-OO-OS.()0520· At the tJme of termination. roughly $8.5 mllllon had been
                      expended on the project over the course of 4 .5 years oiwork Explain why the services to
                      design and construct 16 facilities o f higher education were no longer needed. Provide a
                      detailed descriptlon of the s·1xteen facilities including the function they were to serve. their
                      locatlon. and the extent to which any of the buildings w ere completed and are In use.
                  •   Award No. 306-C-00-09-00505-00· Roughly $1.4 million had been disbursed during the first
                      8 months of a 19-month project yet the contract was terminated because. · its completion
                      was not going to be possible within the period of performance." Provide the percentage of
                      completion of the dormitories at the time of termination. Was work on the dormitories
                      abandoned or was Ka bul University able to use whatever progress tiad been made on the
                      project for an alternative purpose? Please provide supporting documentation.
                  •   Award No DFDJOQ-05-00225· Considering that $69 million had been spent and roughly 3 .5
                      years invested in this project before termination . were the contractor's shortcomings
                      correctable in the final seven months of the project?

              5   For 4 of 1 7 projects, the rationale for termination/ca ncelation was either that the implementer
                  was not meeting the needs of an International partner (one project) or that there was lack of
                  cooperation from the Afghan 1nstJtutlons (three projects) How does the lack of cooperation from
                  Afghan instit utions In Afghanistan compare to other countnes In which USAID 1s operating? To
                  what degree is the lack of cooperation impeding USAID reconstruction and development efforts
                  in Afghanistan? Please respond to the questions below:
                  •   Award No. DFD+00-05-00225: What needs of the Independent Election Commission (IEC)
                      were not being met by the contractor. Interna tional Foundation for Electora l Sys terns (IFES)?
                      What efforts were made to rectify the shortcomings during the life of the contract?
                  •   Award No Alp.306-B(C13-000Q5· No funds were expended during the six months this
                      project was active. What actions were taken by USAID and its contractor to facilitate
                      cooperation With the Afghan Supreme Court? Describe what other USAID projects or
                      programs involve the Supreme Court and whe.ther they are in jeopardy of being
                      terminated/ canceled?
                  •   Award No. 3 06-0-00-00533-00; According to information furnished by USAID. the United
                      Nations Office for Projects failed to cooperate with the co ntractor hired by USAID to conduct
                      an audit What actions were taken to resolve the impasse? How was the issue of the audit
                      resolved? Was it ever conducted? What was the total value of the Kabul School Construction
                      project that was the focus of the audit?
                  •   Award No. Al(}.306-BC-13-00009: What actions were taken by USAID and its contractor to
                      facilitate cooperation with the Ministry of Counter Narcotics? What other USAID programs the
                      concern M1 n1stry of Counter Narcotics and are any of those contracts in Jeopardy of being
                      terminated/canceled?

              6   Award No. 3 06-A-00-06-00506-00: After the Academy for Educational Development was
                  suspended. did USAID conduct a cost incurred audit to determine the final disbursement and
                  whether there were any questionable costs? If so. provide supporting documentation. Were the
                  activities being ca med out under this contract re-solicited? If so, provide the contract number
                  award date and the name of the contractor. After AED was suspended. were audlts conducted
                  on all USAID-funded AED proJects in Afghanist.in?

              7   Award No DFD+00-05-00248· Provide a copy of the final USAID Office of Inspector General
                  Investigation Report to include the end result and recommendations .

              8   Award No 306-IL-10-0+01· The funds in this program were on-budget funds. Is there a lessons
                  learned document or post cancellation review that was produced relating to USAJD's experience

              SIGAR-14-44SP Inquiry Letter. Canceled USAID Contracts                                               Page 4




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                     Page 42
                  w1th this program? What did U1e November 30. 2012, aud1lconclude about the $2,286.979 .20
                  al ready spent? Prior to signing an Implementation Letter a number of assessments should be
                  conducted (including a Publ ic Financial Management Risi\ Assessment)2--what deterrninations
                  did the Mission make rega rding the strengths of the Independent Directorate for Local
                  Governance's internal controls and ability to disburse funds?

              9    For each of the following. provide further explanation for the term1natJon/cancelabon
                  •    Award No. AID-306-T(}.12-00012: Provide the initial request for proposa l or requirement at
                       the time of award What factors led to the broadening of the program strategy and why were
                       these factors not identified at the time of the award?
                  •    Award No 306-Q.00-11-00526' Explain the delays in mobiltzat1on (outside of the contractor s
                       control) that caused this project to be canceled

                  •    Award No. 306-1·15-06-00517·00: Explain further the reason for the customs delays and visa
                       problems . Were viable alternabves/workarounds such as the use of other personnel to
                       perform the work identified as a means to mlbgate the schedule delays and allow the
                       program to proceed? If so. provide supporting documentation.
                  •    Award No. AID-0-00-08-00522-00: Provide specificity as to why "the contractor could not
                       proceed with the assigned audit."
              1.0. Has USAID canceled or terminated any additional projects or programs. other than the 17
                   referenced above. since 20087 Did USAID cancel or terminate a contract cooperative
                   agreement or grant dealing with road construction u1at Involved International Relief and
                   Development? lf so. please provide the same information for each projector program as
                   requested in question number one




              -' USAID, Automated Di1'0d1\ies System (ADS) 2.."0· Use or Reliable Part11e1 Cou11t1y Systems for Direct Marragemerit a(1d
              /mplem~ntation of Ass1stanre. updated March 2012




             SIGAR-14-44SP Inquiry Letter. Canceled USAID      Contracts                                                            Page 5




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                                      Page 43
             ATTACHMENT II: USAID RESPONSE, DATED DECEMBER 15, 2013




                              ,~ 1 ~.~~~Q I AFGHANISTAN


                                                                                     lkccmhcr 15.     ~01 :;




                                  ~Ir. John I . '>opl..u
                                  I1hpcc1nr ( 11:ncr.1 I
                                  ... (h:cial ln,(h:Ctur C1.:m:r.11 ll•r
                                   •\lglrnni,tan lk.:011<tn11.:1i11n



                                  In rc'fll'lb.: 111 ~our kncr lla1cJ. :-..111cmhcr 15. :!013. l SAIL> oll\:r- ~1•11
                                  the r<:<]Uc,11.-J '''' ul project' .ind prngmm' 1cr111inm.:J h~ the l S1\ll>
                                  \li"l{ll1 111 /\lgh;1111,l:111,111.:c ~IKIX.

                                  I '..,i\11> .1ppn:n;i1c' the n1lc th.ti the 'ipc.:1.11h1'pcctur<11.111:r.1l lilr
                                   \lghanl\tan Rc.:un~tru1.·111in pla~' 111 helping \!',AID rc,punJ lo llw
                                  11111<1uc d1.1llc11gc' in /\lghm1ht111.inJ 1.tl111."1•ur 1•ng11ing cullahoralion

                                                                                     '\inccrd~ .



                                                                                    b,, t11~att
                                                                                     \cung \11"11111 L>ircctor




                                  vSAft'IC'f tfr~~
                                  0<•..MMMMUJfr...a
                                  Jl.ao..t 4~U.-




             SIGAR-1 4-44-SP Inquiry Letter: Canceled USAID Contracts                                                  Page 6




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                         Page 44
                                                                                                                      ..
                                  '
                                                                 u
                                                                 f .

                                           Ii
                                                                              lt1                i           l



                           I hitf!         I
                                           •i
                                                                 ,~



                                                                 ~1
                                                                              .t
                                                                              ·i·    I
                                                                                     •
                                                                                                             Iif! ·'••f! !!h'l
                           I                                     r~
                                                                              i i ..
                                                                              11!                I           , I 1• 'ii.
                                  '3
                                                                                                             fl Ii''t H
                                           l
                           J

                           I               !                     A~
                                                                 ,,           1·1                f



                                  l! ';llh
                                                                 1t

                                                                     .. (
                                                                                                 i
                                                                               J,.JIt
                           ~

                                                                                                             i:1
                                                                 If~                                         sl f !H•• H
                           I
                                                                 ~
                                                                                                 J~!

                           i ij l l 1. ~ 1• j t 1i!ihi
                              • ~1          I
                                                                                             :1} 11.t                        I
                              H  .  i,i.!as                          1
                                                                            1Hih                                          ..~ iH1
                                                                                                                                      t



                              ,,.,                                          H!•if            .!t:J·1·...,i   ll               .u~

                                                                                                             u, IfJ~ n·I
                              }1! i'h!Jt
                           II i1h   rls. 1 Ii"
                                    !itf
                                                'II*~
                                    ru 1li,B .lil''ti
                                                        1·
                                                             i       ~l o
                                                                            ~ulu
                                                                            : 11 ~ :•        ~ai
                                                                                                             :f
                                                                                                                     PH
                                                                                                                     j!r
                     I
                                 ~. "1
                              Hh ~J1P                                       Hhii             t{ t
                                                                                             i
                                                                                               ~             Jh       it     ,! t
                     ..
                      ~    J
                           j

                     '
                                  ,                                                              r
                                  ~         !                        f
                                                                     •         f                 1               f
                                                                                                                 "    I              ~
                                                                                                                                     ~


                     "
                     !     j
                     "~
                     !!:
                           !
                                  !         ~                        ~         !                  •
                                                                                                 !l              I    i.         '   ~

                     It
                     I
                           J
                           j
                                  i         !..                      i•        .;                ,•              i    l          i
                     i! 1JJ•      "
                                  I            •!                    !
                                                                     ~
                                                                               ~                 ;"
                                                                                                                 $

                                                                                                                 !
                                                                                                                 ~
                                                                                                                      ~
                                                                                                                      i
                                                                                                                      !          =

                                                                     ••-
                     I
                     l             -        ..-                                •-                •-              -    •-             •
                           jJ !•                                                                                 •
                                   B


                                            .
                                                                                                                 ~

                                            Ii
                                                                               ~                 l                                l
                     l
                     i u   J.
                                               ~
                                                                     •
                                                                       j                         !               ~    '
                                                                                                                      J          !
                     ~
                     ~
                                   -        -                        -         -                 -               -    -              -
                           I                                                                                          I
                           I•J    1                                                              '               .JJ I           i
                                                                                                                                 ~

                                                                                                                                 ,
                                                                                                                                 !
                                  l
                                  I
                                  j
                                               i
                                               I                     I!       .
                                                                              .
                                                                                                 I               ~
                                                                                                                 ~
                                                                                                                   r
                                                                                                                      I 11
                           i             {--•Ih              (11!1
                                                                               :

                                                                               fi
                                                                                             !!
                                                                                        -..i:ia.             ·j
                                                                                                                 l    1i
                                                                                                                                 '
                                  J                          inn                        ,_,
                                                                                        lttJ
                                                                                                                 "IH
                           }                                                                                                     l~
                                         :~· 1                                 zJ
                                  Ii     11: .: I.
                                                t   t        h!H               h        f}HJ
                                                                                        I'!I                 H
                                                                                                                 ti


                           J
                           J
                           •
                                  1
                                   ~        !
                                            ~
                                               II

                                                                     !
                                                                     i
                                                                               I
                                                                               !
                                                                                                 I
                                                                                                 ~
                                                                                                                 a
                                                                                                                 I

                                                                                                                 ;"
                                                                                                                 f
                                                                                                                      ;i
                                                                                                                      I
                                                                                                                                     i
                                                                                                                                     I
                           JI l                ll                    ll        ~                 §               ~    ~              2
                            - -             -                        -         .                 -               -    -              -

             SIGAR-1 4-44-SP Inquiry Letter: Canceled USAID Contracts




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                                                                   Page 45
SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts   Page 46
ENCLOSURE III: USAID RESPONSE TO SIGAR, DATED DECEMBER 15,
2013




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts   Page 47
                                                                                                                                                                                                                                                                                                                                                                             Page 48
SIGAR INQUIRY

                                                                                                              List of Projects and Programs Termlna1edJCancelled by USAID Mission In Afghanistan since 2008


      T""""'
       Olllco



  1 IOAG
              "             AtAri No,




                  ,JO&.A·OG-07-00504
                                                         1'roj9Ctrtl•                ...... .,............. ,,,_
                                            \llb.!)l!·Based WatetWd Rest!H'ltlon jCatl'lollC Relief Servlcn
                                                                                                                   FNITotal&dmdN
                                                                                                                   Coelal_Tennlruilion




                                                                                                                           S,98S, l~. OO J $
                                                                                                                                                D-
                                                                                                                                               Tch1Aml>d1i
                                                                                                                                                                       AWlld Cite




                                                                                                                                                   !.44Qeo!IOO l1 '8f2007
                                                                                                                                                                                         !ndDlf•



                                                                                                                                                                                    1&'3~2011
                                                                                                                                                                                                       r...n111·11ono1t1



                                                                                                                                                                                                   &'2312010
                                                                                                                                                                                                                                               BrW ProjKWrognm DwcriptiOn


                                                                                                                                                                                                                               Tt1emalnoti,ett:1veoftnepro,ec1was l1l rT'fl'OYt! Watet
                                                                                                                                                                                                                               se~Llll'f fr.t home «insu~bonand r°' ~tionby
                                                                                                                                                                                                                                                                                                          l riltfXjMnlltonfor Ctne861dOl'llTwmlnltion



                                                                                                                                                                                                                                                                                             llJS.AION,gttanJst.ln leN)'lnaled the pro,111ttfot the converuence of lfle
                                                                                                                                                                                                                               tehlblfl:aljnQ wattutitdt IOcated wim1111t1e large~            Governmenl .i'ld tolded lt\e ae11Vt11es ln.t!I othl!r projects.
                                            """"                                                                                                                                                                               1Anagesarte1inrougnwa tttto~ervaoon


                                                                                                                                                                                                                               Tiit pu111ose of ltiis- pro(J'3m was to p'°"lde Ngnans with
                                                                                                                                                                                                                               improV'ed access lo i ~omwtion and lo ernpo¥1e<local
                                            Thep'-'Jloseoflheprocuremeliwn
                                                                                                                                                                                                                               media. The program was desi9ied to help create a neM
                                                                                                                                                                                                                                                                                             l1bfdpro1est.
                                            taptovideNghans                                                                                                                                                                                                                                      ~O'Hgtiaoiittn tennnated ttJe anrd !or COflllenient• folowiog
 2 IOOG           'JOe-c-0<).1Hl!Y.117-00                                     ,Mobltel(ti.tiili'                          16,,80,62117 11          1990 ..7,17 1imno11              ·V23120!l      10/151201 1                 seMcelorcollecllig d avaUablellf!WslilfldlnrOl'malion
                                            wirhimpf"O\ledacc.esstolrfonmtion
                                                                                                                                                                                                                               coi&enL rmde avdable ta AlltlfM via ilelr moolle
                                            and lo errciowt1 local me~iil
                                                                                                                                                                                                                               phone~. T~ .system wa, named "MoD~i:: Khalu1r i#lflld'I
                                                                                                                                                                                                                               means "Mol>lle NeWf' lo l>Olh Du1 and Pa-Shiu.



                                            ToperfonncritiWpo$t20 10tlt ebOn                                                                                                                                               IThepurposeof!Ktcmrac:twuto.supportioa'used
                                            cap11t1f)'~eklpn'letll•c1Mtie.!that                                                                                                                                             @fectot!ll Cl?&(ltf .lllcl lrrfll'O'led f!er;fnral aci'rwllstration '1 lEC coriadt:d the IFES COR tidicali'lg lhlll lhe !FES project lfllas no
 I IOOG           !JFO.l-OO-OS-0022-S       ~I pfer-are ~   IECtotal.e on !JtalerltFES                                    11.340.112.00 11        19.201.8% 88 l611Yl<l08           BIJll'lOtt     11f812012.               Afgf'lanrslan ltl!Wgh the '"'o..fs1on ol technlcat •nd                 longer me.ebng the nieeds of the IEC; a temlnalloo lor con\lenlence
                                            le\ltk:olrtsponslblif)'lor tuture                                                                                                                                               IQUlstkal1u!5blnte tolneAftj\111 lndepenilentE!ectloo            l     \Os ltsued,
                                            eled!on evem. STEP Proj~.                                                                                                                                                       Commnlon {tEC)




                                                                                                                                                                                                                               Thepurpose.oftheAfJN'PraijnimWHfOJM.11Cl'\ase
                                                                                                                                                                                                                               w::rvicn ,_ support ol the C.rrtbimy'$ new P.-Jiamentary. ,~l)Af~hanlSlan tenrinated ll"lf: contratt rtM- ttle c-oovenlenc:e OI
                                            Jo 5Upport ltle Oevdopmer( of the                                                                                                                                                  E1tg~emm Plan . lfKJud!nv the revltW' of Mlni$1:enaj !lr1d inc Government beuuse the m!Sf!flte .strategy w.n b<hdened,
 4 IOOG           M0.30&.T0.12·00012                                               ION                                        7'01600 11             1 1.ss1.1e- 101112012          1!13112015     12/612012
                                            Af~n Pllliamenl ~AP-11                                                                                                                                                             ~me COtit •Wointmerb. and ~on.Udmtion or trtical Whictl neeeuQted 11 sigfllfitant change in the reql.i'emenls
                                                                                                                                                                                                                               legi.illtioo,le,,1pniposedaUditbl elttbonsrefomt.1
                                                                                                                                                                                                                               htl1T11nrigtisblll. andpossiblel1Wl1F!glegtslation.




                                                                                                                                                                                                                                                                                                                                                                             SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts
                                            TodeveloplMcaimtyof
                                            /Vgh.a111stan'1j(lstlce'y' teru                                                                                                                                                    TriepurposeotineRIAeof l wwS:abihlltlOfl (RLS)
                                                                                                                                                                                                                                                                                              The refeteMt<l ,orttattwa:s temWll!rto ror convenience ro11owing a
 ' IOOG           : JO&C-00- 1 1Hl~O&-OO    to bt! atteuble, re41<Hlle. and fair   !CMcchi ConSUl!ing •nc                  5,001,000.00 Is          59Ml772 l1 1112010              1V31'2012      1121512010                  pro!J1m was to devtlo!> !tie upady or /llghitn1S1Jn's
                                                                                                                                                                                                                                                                                                 M!J~!~t
                                            FM! of Law StabC!i2ation (RLS)                                                                                                                                                     i11Slice1ystamlobt!acteuible, reiable. andfair
                                            1'og•m




                                                                                                                                                                                                                                                                                             l
                                                                                                                                                                                                                               Tht purpose at this IM wu to eomtruc:t 1dd1\loml               ~CltN,ghanl~•n tennnaied me lnletW!ttntJ ~recrnent lorltlt
                                            De.sign and conW'Uchon of sixrcen
 ' IOEGHWS l30&-P·O~O~OOS20
                                            bcLatH of Hgt1er Educal1on
                                                                                    lJ.SAITTryCOi"JWt:JEti~m               l.!29.Gll.771 1         111usM• 11mnoo1                  ~sono13        1/1512013                   class1ooms, laOOl'llloncs, Jlbrary1pate. andrtll.lbbh          convenience ofltlc Giwmment because the ser111Ce1were no
                                                                                                                                                                                                                               i:itlirll'l:!lfiKillt1es                                       IOll:!l' rrcqi.hd




                                                                                                                                                                                                                                                                                             lwar.n
                                                                                                                                                                                                                                                                                              ~!)HghiOlstan tcunnaced tile COlitaCI fOf lhe C.Of'l\IM!ence of
                                                                                                                                                                                                                               M-::n'1 Oonmotr Reno~on
 7 IOEGl-'AAIS \JOa..coQ.-09-00SOS-OO       Kabl.i Unhlen~ Mtn's Dorm'tOI)          lakul'IOfeEngil'IUtllgSmkes            1.002.020.00 11         1.396.88i ,07 l1 21112Cl08       '5'3112010     7/2/2009                                                                                   ttle Goveinmett beuuse Its comptedOll was not going to tie posd>le
                                                                                                                                                                                                                               Design 1md ConsttUtbon of Common Q;l\lllg Fat11Cy
                                                                                                                                                                                                                                                                                                     lhe period of pefformanee.


                                                                                                                                                                                                                               Thtpurp0$eaftn1s contract wu to p11Wlde 1W -S111Wort

                                                                                                                                                                                                                                                                                             Iddlys '1
                                            Co!l"fTletcillf'VIScni1et511            Me1QPota1T11 Gniup LLC (MG)                                                                                                                $.1.:MCe$loO«l1:1""tore-JUpplyprojt:t:t~tttEll.\'feJe             USAICltN.Qhlnl~an fetrnnated tt'IC' «llltrtd l'O< convtrlerke due lO
 I IOEGl-RNS l 3011-CO~l 1-00S20
                                            H~nlstan                               iSemcei
                                                                                                                           6.499.500.00                    so.001•121no11           10/2112012     lir'1412012
                                                                                                                                                                                                                           1nacee1Slblebyroad. and tocooouct monitonng. and                               mob~zatm lmitliwtte oi.tslOe       of ~oob"1clor'ttonlrol
                                                                                                                                                                                                                           1
                                                                                                                                                                                                                               \nlmportOJ~ltalevat\JabonOfper.sOlli'ld
SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts   Page 49
ENCLOSURE IV: INITIAL INQUIRY LETTER TO USAID REGARDING
CANCELED CONTRACTS, DATED NOVEMBER 15, 2013




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts   Page 50
SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts   Page 51
ENCLOSURE V: USAID MISSION DIRECTOR OPEN LETTER TO THE LOS
ANGELES TIMES, DATED NOVEMBER 3, 2013
Letters: USAID in Afghanistan11
November 03, 2013
Los Angeles Times

Re "Afghan projects may lose oversight," Oct. 30

The article overlooks Afghanistan's development progress as it breezes over USAID's rigorous
oversight of our projects worldwide.

In the last 10 years, Afghans have seen a 20-year increase in life expectancy and a 62% decrease in
child mortality. A decade ago, female education was banned in Afghanistan. Now, almost 3 million
girls attend school.

Americans can be proud of their contribution to those achievements.

Furthermore, allegations of widespread waste and mismanagement are unfounded. Where USAID
has identified instances of waste and project mismanagement in Afghanistan, we have terminated
contracts and projects.

Our multi-tiered approach to monitoring development projects ensures that our rigorous oversight
standards will continue to be upheld in the future.

William Hammink
Kabul, Afghanistan

The writer is USAID's mission director in Afghanistan.




11   http://articles.latimes.com/2013/nov/03/opinion/la-le-1103-sunday-usaid-afghanistan-20131103




SIGAR-14-73-SP Inquiry Letter: Canceled USAID Contracts                                             Page 52
